<html>
<title> - THE STATE OF PUBLIC HEALTH PREPAREDNESS FOR TERRORISM INVOLVING WEAPONS OF MASS DESTRUCTION: A SIX-MONTH REPORT CARD</title>
<body><pre>[Senate Hearing 107-507]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-507

THE STATE OF PUBLIC HEALTH PREPAREDNESS FOR TERRORISM INVOLVING WEAPONS 
              OF MASS DESTRUCTION: A SIX-MONTH REPORT CARD

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             APRIL 18, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs

80-296              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
            Michael A. Alexander, Professional Staff Member
     Michelle McMurray, Congressional Fellow for Senator Lieberman
              Richard A. Hertling, Minority Staff Director
          Jayson P. Roehl, Minority Professional Staff Member
         Morgan P. Muchnick, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Cleland..............................................     4
    Senator Bunning..............................................     7
    Senator Akaka................................................     8

                               WITNESSES
                        Thursday, April 18, 2002

Hon. Tommy G. Thompson, Secretary, U.S. Department of Health and 
  Human Services, accompanied by Jerry Hauer.....................    10
Margaret A. Hamburg, M.D., Vice President for Biological 
  Programs, Nuclear Threat Initiative............................    36
Thomas V. Inglesby, M.D., Deputy Director, Johns Hopkins Center 
  for Civilian Biodefense Strategies.............................    38
Thomas L. Milne, Executive Director, Governance Support Team, 
  National Association of County and City Health Officials 
  (NACCHO).......................................................    40

                     Alphabetical List of Witnesses

Hamburg, Margaret A., M.D.:
    Testimony....................................................    36
    Prepared statement with an attachment........................    54
Inglesby, Thomas V., M.D.:
    Testimony....................................................    38
    Prepared statement...........................................    67
Milne, Thomas L.:
    Testimony....................................................    40
    Prepared statement...........................................    74
Thompson, Hon. Tommy G.:
    Testimony....................................................    10
    Prepared statement...........................................    41

                                Appendix

Article entitled ``Public Health Preparedness,'' Science 
  magazine, February 22, 2002, submitted by Dr. Hamburg..........    66
Chart entitled ``Bioterrorism Funding for Selected HHS Agencies'' 
  (submitted by Sen. Cleland)....................................    83
Chart entitled ``Federal Bioterrorism Preparedness and Response 
  Activities'' (submitted by Senator Cleland)....................    84
Chart entitled ``Sources of Formal Authorities and 
  Responsibilities of Various Federal Agencies In the Event of 
  Bioterrorism--Executive Documents'' (submitted by Senator 
  Cleland).......................................................    85
Chart entitled ``Sources of Formal Authorities and 
  Responsibilities of Various Federal Agencies In the Event of 
  Bioterrorism--Statutory Authorites'' (submitted by Senator 
  Cleland).......................................................    86

Questions for the Record and Responses from:
    Hon. Thompson................................................    87
    Dr. Hamburg..................................................    91
    Dr. Inglesby.................................................    95
    Mr. Milne....................................................    99

 
THE STATE OF PUBLIC HEALTH PREPAREDNESS FOR TERRORISM INVOLVING WEAPONS 
              OF MASS DESTRUCTION: A SIX-MONTH REPORT CARD

                              ----------                              


                        THURSDAY, APRIL 18, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Cleland, Akaka, Dayton, 
Carper, Collins, and Bunning.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning and thanks to all of you for being here.
    Today, the Committee on Governmental Affairs examines the 
Public Health System's readiness for a terrorist attack 
involving biological, chemical, or radiological weapons. This 
hearing, which was specifically requested by our friend and 
colleague, Senator Cleland of Georgia, follows up on a session 
the Committee held last October that exposed a public health 
system underprepared to respond to a series of biological 
attacks that had occurred in the form of anthrax sent through 
the U.S. mail.
    I thank Senator Cleland particularly because he has led the 
way on so many of these issues. You arrived just in time to 
hear me praising you. It could not be better timing or more 
well deserved, thanking you for your thoughtful and impassioned 
work to increase the security of the American people at home. 
In particular, I want to recognize Senator Cleland's efforts to 
strengthen our country's ability to respond to biological 
weapons by crafting legislation that would establish a much 
needed central coordinating office at the Centers for Disease 
Control.
    Senator Cleland will, I am pleased to say, assume the 
chairmanship of the hearing as we go forward and I must leave 
to go on to other commitments.
    Let me go back to the anthrax attacks of last fall. Five 
Americans lost their lives because of their exposure to anthrax 
last fall. It was a vicious, fast-acting terror weapon that we 
knew very little about. But our ignorance of anthrax and how it 
works was compounded by bureaucratic labyrinths that prevented 
critical information from getting to those who might have 
helped save lives. Fortunately, the anthrax attack, deadly as 
it was, was on a relatively small scale. Had it been a wider 
attack, I think it is clear that the public health system would 
have been quickly overwhelmed.
    Today, we are gathered here to ask for a 6-month assessment 
of the Federal Government's ability to prepare for and respond 
to a future attack, and specifically for an update on the 
coordination between public health and law enforcement 
agencies, which ran afoul of each other in the midst of last 
year's terror.
    We are very pleased and grateful to have Secretary of 
Health and Human Services Tommy Thompson return as a witness 
today to speak about the progress his Department has made on 
these fronts.
    The first thing that we all learned about a biological or 
chemical attack is that it differs from a conventional 
terrorist attack and, therefore, requires a different response. 
A biological attack would probably follow a more insidious 
course. It is a stealth attack, in effect, that might make 
itself known slowly and perhaps only intermittently and in 
places that are disparate, such as doctors' offices, health 
care clinics, or hospital emergency rooms.
    As an oversight committee, it is our duty to ask if the 
government is prepared to protect American lives should the 
unthinkable occur, and the answer today, I believe, is that 
despite some promising progress, Americans are still at risk. 
Ten major agencies and dozens of bureaus, including the Defense 
Department and the intelligence agencies, are responsible for 
threat assessments, surveillance of disease outbreaks, the 
protection of food and water supplies, developing and 
stockpiling vaccines, and assisting State and local governments 
in planning, training, and responding to attack. Secretary 
Thompson's Department alone has six different agencies involved 
in response preparation to bioterrorism and chemical terrorism.
    The problem is that each of these dozens of offices, as is 
commonly the case throughout government, communicates with its 
own particular constituency but too frequently fails to speak 
and coordinate with other agencies involved in the same 
undertakings. I must say that if we have learned anything from 
our examination of homeland security in this Committee over the 
last 6 months, it is that poor communication and coordination 
among Federal agencies and between Federal, State, and local 
governments is clearly one of the greatest impediments to 
adequately protecting the public.
    I know that Secretary Thompson and the administration are 
aware of the daunting task before them. Since October, the 
administration has set aside over $1 billion to help States 
respond to public health emergencies resulting from terrorism 
and it has requested an additional $4.3 billion in the fiscal 
year 2003 budget, which is an increase of 45 percent over the 
current fiscal year, and all of it to prevent, identify, and 
respond to bioterrorist attacks.
    Last fall, Secretary Thompson appointed a special assistant 
to coordinate the agency's bioterrorism programs and HHS has 
developed a central command center where it can monitor 
information about bioterrorist attacks and respond accordingly.
    As I understand it, the administration also plans to expand 
CDC's health alert network, which would connect every county 
health system in America to CDC through the Internet, and half-
a-billion dollars is slated for a program to help local 
hospitals.
    Despite these steps, the Federal Government, I conclude, is 
still a long way from where we need it to be, and in the longer 
term, we need to build a more robust public health system with 
aggressive health surveillance programs to detect the onset of 
illnesses, and we need better coordination and better support 
for State and local governments and their health care systems.
    So it is up to us. Only the Federal Government can ensure 
that the necessary programs and structures are in place to 
protect the American people from a biological, chemical, or 
radiological attack and we must work together, Executive 
Branch, Legislative Branch, and private sector and nonprofit 
private sector. We must work together to make sure we are 
operating from a position of strength and unity to fulfill our 
duty in this new post-September 11 age to protect the American 
people.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, and thank you for 
calling this hearing to look at the progress that has been made 
since the anthrax attacks last fall and to assess what remains 
to be done to strengthen the Public Health System's ability to 
prepare for and respond to a biological or chemical attack.
    The tragic events of last September and October were a 
powerful reminder of just how vulnerable our Nation is to 
terrorism and how woefully underprepared much of our public 
health system was to respond to such an attack. Moreover, the 
attacks have heightened our fears that we could face an even 
more devastating attack in the future, including the 
possibility of a mass casualty attack with a deadly biological 
agent like smallpox.
    Bioterrorism is unlike any other form of terrorism. While 
explosions or chemical attacks cause immediate and visual 
casualties, the intentional release of a biological agent, such 
as smallpox, may at first go unnoticed and, thus, could be far 
more insidious. It causes a ripple effect that unfolds over the 
course of days or weeks. If not contained, it can spread to 
others who were not initially exposed, causing a major epidemic 
and posing a real threat to the survival of our population.
    The long-term threat of biological weapons is very real. 
Moreover, future advances in technology will not only make 
these weapons more dangerous, but also make them more 
accessible and affordable to those who would do us harm. Tragic 
as they were, the anthrax attacks in the fall were, in effect, 
a dress rehearsal for what we may very well face in the future.
    It is, therefore, extremely important that we take a close 
look at what happened last fall, as we are doing in this 
morning's hearing, and analyze dispassionately what went well 
and what did not.
    The hearing held by this Committee 6 months ago in the wake 
of the terrorist attacks revealed our Nation's lack of 
preparedness to cope with an attack using a biological or 
chemical weapon. Witnesses identified a number of weaknesses as 
well as a number of factors that are critical to the rapid 
detection and response to such an attack. I remember the 
testimony that we had about the alert public health lab in 
Florida that identified that the first exposure was, in fact, 
anthrax. Had that sample been sent elsewhere, who knows whether 
the initial case would have been identified as anthrax as 
quickly as it was.
    Witnesses told us that we need alert health providers who 
are trained to recognize the symptoms and signs of a biological 
attack, as well as trained to treat such diseases. We need a 
core of well trained public health professionals engaged in 
disease surveillance. We need an adequate supply of necessary 
drugs and vaccines, something that I know that the Secretary 
has taken considerable steps to bring about. We need seamless 
coordination and communication, as the Chairman indicated, in 
order to avoid the problems that we saw last fall. We need a 
network of up-to-date public laboratories. And we need strong 
safeguards to protect our Nation's food and water supplies.
    In addition to strengthening our Federal response, we must 
remember those who are going to be the first responders, our 
emergency medical personnel, our fire fighters, our police 
officers, and our labs throughout the country. Those are the 
people who stand on the first line of defense in the event of 
any major biological or chemical attack. We must ensure that 
they have the capacity to identify the signs of an attack and 
the resources to be prepared.
    I am, therefore, pleased to have helped to draft the 
Bioterrorism Preparedness Act, which passed the Senate last 
December and is now in conference. This bill takes major steps 
not only to strengthen our Federal response, but to provide 
additional substantial new funding to States, local 
governments, and hospitals.
    Mr. Chairman, our world was forever changed on September 
11, and unfortunately, the threats of terrorist attacks that 
were once unimaginable are today horrifyingly real. But just as 
the terrorist attacks of September and October have caused us 
great concern and considerable pain, they have also 
strengthened our resolve. I am confident that we are making 
progress and I look forward to hearing the Secretary's 
testimony this morning and I thank you for holding this 
important hearing.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Cleland, thank you again for your leadership in 
bringing this hearing together.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. May I 
just say that I first got into this whole issue of biological 
and chemical warfare about 3 years ago in hearing former 
Secretary of Defense James Schlesinger talk about the new 
threats we faced. As a fellow member of the Armed Services 
Committee, you might have been there, too.
    It struck me--I shall never forget what he said. We were 
discussing nuclear weapons and the scientific challenge that 
produced. You had to have some skill, you had to have some 
talented people, and you had to have a delivery system, 
probably a missile system. But Jim Schlesinger said that, in 
terms of biological and chemical weapons, he said you can make 
a biological weapon if you can brew beer and you can make a 
chemical weapon if you can make fertilizer.
    That really shocked me. It put me on notice that, in many 
ways, for terrorists particularly, working off of a low-tech 
agenda, that the biological and chemical attack was in many 
ways the poor man's atom bomb, the poor man's weapon of mass 
destruction. And so I became concerned that the country was not 
quite adequately prepared to deal with this, in a sense, 
stealth or under-the-radar attack.
    We went through September 11 of last year and we had the 
attack on the World Trade Center and the Pentagon. We scrambled 
the jets. Now we are prepared militarily in a second's notice 
to scramble more jets. Secretary of Defense Rumsfeld has 
created a four-star command looking after the continental 
United States, Mexico, and Canada, stationed near the NORAD 
headquarters in Colorado. We have nerve centers in the Pentagon 
and the situation room in the White House that addresses itself 
to an instantaneous response to literally a military or 
terrorist attack.
    My problem is that I do not think we are that well prepared 
in terms of a biological or a chemical attack and I have been 
searching for a strategy, searching for the elements of quick 
response, coordination, cooperation, and communication in our 
strategy for defending our homeland in case of a biological or 
chemical attack.
    I would like to thank Secretary Tommy Thompson for being 
here, a friend, and a great public servant.
    The state of our public health preparedness for terrorism, 
I think, is lacking in many ways. We are a country looking for 
a strategy in how to deal with this issue. I am grateful to 
you, Mr. Chairman and Senator Thompson, for calling this 
hearing to assess the progress we have made to date to ensure 
that our commitment to implementing a strong homeland defense 
against bioterrorism does not wane.
    Even as the anthrax crisis of last fall recedes, and 
Senator Collins mentioned a health agency in Florida that found 
that it was anthrax down there in Boca Raton. The interesting 
story about that is that the doctor reported it to the public 
health entity in the State of Florida, the State public health 
operation in Jacksonville, which had just had an employee get 
training at the CDC on anthrax. They forwarded the spores to 
the CDC and at 3:30 a.m., the CDC said, it is anthrax.
    So in many ways, that kicked off this whole discussion of 
how does all this work? How does the public health sector work? 
What is the role of the CDC? What is the role of HHS? What is 
the role of the FBI, and the law enforcement agencies?
    In so many ways, our homeland and its defense as an issue 
looms as ominously as ever over our heads. I am pleased to 
continue our ongoing dialogue with Secretary Thompson on the 
matter of bioterrorism preparedness. I, and I think I speak for 
all of my colleagues, as well, would like to express our 
gratitude to you and to your entire team at HHS for your 
efforts to guide our Nation through a very, very difficult 
time.
    At the outset, I would just like to express my strong 
conviction that combatting the threat of bioterrorism will 
demand the commitment and full cooperation of us all, of every 
relevant resource. Congress and the Executive Branch must work 
together toward our common goal, and let me signal to you this 
morning, Mr. Secretary, my unequivocal desire to work with you 
and the Department of Health and Human Services and the 
administration and the Office of Homeland Security and other 
relevant Federal, State, and local authorities to build a 
strong national defense and a strategy to deal with 
bioterrorism.
    I would like to commend you and the administration for a 
number of steps you have already taken. In the next fiscal 
year, the administration has proposed dedicating an 
unprecedented $4.3 billion to HHS's bioterrorism initiative, a 
45-percent increase. Mr. Secretary, you have named Dr. D.A. 
Henderson, the pioneering former Centers for Disease Control 
and Prevention official who led the campaign to eradicate 
smallpox, an eminently qualified expert on bioterrorism, to 
head the new Office of Public Health Preparedness. We are 
looking forward to seeing how that office relates to the other 
entities involved in bioterrorism. I think the existence of a 
coordinating office such as this one is actually essential as a 
step forward in coordinating the bioterrorism response.
    I am particularly interested this morning in hearing more 
from you, Mr. Secretary, on three issues I would like to 
explore in depth within the larger subject of our discussion, 
which bear strongly on our Nation's preparedness to deal with 
the public health consequences of terrorism involving weapons 
of mass destruction.
    First, I believe we in the Congress have got to provide you 
and your Department with whatever resources you need and think 
are necessary to protect our country from bioterrorism. We made 
a good start when we finalized the budget for the current 
fiscal year by increasing bioterrorism funds in HHS ten-fold. I 
must express my concurrence with Senator Frist's guarded 
assessment, however, that while that is ``enough to take us 
from an unprepared state to a more prepared state,'' we cannot 
yet say that the public health sector is actually adequately 
prepared to deal with the public health implications of 
terrorism with weapons of mass destruction.
    We must keep in mind that we started this race to catch up 
a lagging public health infrastructure just 3 years ago, and 
then from a virtual standstill. I think it is, therefore, worth 
asking whether the administration's proposed increase for 
bioterrorism defense, significant though it is, is actually 
sufficient. The magnitude of the threat and the potentially 
catastrophic consequences of underestimating our needs demand 
that we ask that question, and I will detail several specific 
resourcing concerns when we reach the question and answer 
period.
    Second, Mr. Secretary, I look forward to receiving the 
specific details of HHS's One Department initiative. As I 
understand it, under the initiative, the Department would 
consolidate each of the public affairs and legislative liaison 
offices of all the agencies within HHS into one office for each 
function under the Secretary. I certainly share a desire to 
address the communication challenge, particularly in terms of, 
shall we say, an attack when confusion reigns.
    I remember one old sergeant down at Fort Benning told me 
that war was the most socially disorganized human endeavor. So 
when one is under attack, the ability to speak clearly in 
communications, we put a premium on that. It can actually 
lessen the fear and lessen the terror.
    I do have concerns that this proposal, though, while 
potentially improving the consistency of communication, might 
have at the same time the undesirable and unintended effect of 
actually slowing the movement of information from public health 
experts in the Federal Government to their State and local 
counterparts, and so I am eager to hear more details from you.
    Finally, I believe that today, we have got to address the 
coordination and communication failures that encumbered the 
interaction between public health officials and their law 
enforcement partners in last fall's anthrax crisis. We are not 
looking here for a witch hunt. We are just looking to figure 
out exactly where we are and move forward.
    My interest this morning is not in placing blame for past 
failures or in revisiting old ground, but we cannot afford to 
suffer again the profound disconnect between public health and 
law enforcement that we saw last fall. I would very much like 
to hear from you, Mr. Secretary, about what has been done since 
then to strengthen protocols of coordination and cooperation 
and communication between public health entities and law 
enforcement, and I proposed some legislation last year to deal 
with that and we can get into that.
    May I say, in addition, I would just like to offer for your 
consideration and input, Mr. Secretary, a proposal I introduced 
in the Senate last week to address what I see as an urgent need 
for a single center in the Federal Government whose sole 
mandate is to counter the threat of domestic terrorism, in 
other words, help the country prepare and then help the country 
respond. This legislation would create a dedicated National 
Center for Bioterrorism Preparedness and Response in the CDC.
    Why the CDC? It has got 8,000 employees and they are 
located in 39 different countries around the world. It probably 
is the finest single public health network in the world and 
certainly is a great asset to this Nation, and it operates 
based on several centers that are within CDC. So much of CDC's 
time now is taken up with planning, executing, and helping to 
respond to bioterrorism, somewhere around, I think, 40 percent 
of their time now, except there is no center there to focus 
their energies and to actually help focus monies and to 
actually help us all understand how the monies are being spent 
and see if they are being spent wisely.
    In closing, Mr. Secretary, I would like to convey to you my 
empathy for the difficult task before you. I used to be head of 
the Veterans' Administration under President Carter. I have sat 
in your seat many times, not with your specific 
responsibilities, but I understand the challenges that you face 
and we look forward to hearing from you this morning. Thank you 
very much for being here.
    Chairman Lieberman. Thank you, Senator Cleland. Thanks very 
much.
    Senator Bunning.

              OPENING STATEMENT OF SENATOR BUNNING

    Senator Bunning. Thank you, Mr. Chairman, and welcome, 
Secretary Thompson and all other witnesses today.
    The anthrax attacks on the Capitol last year gave us a 
firsthand experience in dealing with a bioterrorist attack and 
we got to see exactly where our weaknesses were. To put it 
bluntly, we have a long way to go in ensuring that our Nation 
can respond to a large-scale biological or chemical attack. We 
need better communications, as everyone has said, between the 
Federal, State, and local governments. We need more training 
for first responders and we need to be able to swiftly identify 
the illnesses that are the cause of the attack.
    One of the most important things we need during a crisis is 
honesty. Those responding to a terrorist attack need to be able 
to admit they do not know everything. The American people are 
very savvy and the Federal Government will lose all credibility 
if conflicting and inaccurate information is given. During a 
public health crisis, it is critical that people have faith in 
their government that the government is being straight with 
them.
    The President has made preparing for a biological attack a 
very high priority. As you well know, and it has been stated, 
in his 2003 budget, the President has requested $5.9 billion, 
of which $1 billion is already up front, to prepare for such an 
attack. This money would help State and local governments 
prepare, conduct more research and development, enhance the 
safety of our food supply, and improve our Federal response 
capabilities.
    All of these are extremely important and I hope that 
sometime in the near future, we will begin to feel comfortable 
that our responders are trained, our hospitals are equipped, 
and that we can handle any attack that might come.
    I want to thank our witnesses for being here today and I 
look forward to gaining their perspective on this important 
issue. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Bunning.
    Senator Akaka of Hawaii has also been very active in a 
leadership role in regard to the threat of bioterrorism and I 
am happy to call on him.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing on an issue that has occupied the 
Committee's attention well before the terrorist attacks on 
September 11 and the anthrax mailings last fall.
    As Chairman of the Subcommittee on International Security, 
Proliferation, and Federal Services, I want you to know that I 
appreciate the work we have done together in this Committee on 
Federal efforts to prepare for acts of terrorism. I also wish 
to thank the Secretary for joining us today. I read your 
statement with interest, and I want to commend you for moving 
so quickly in enhancing your efforts and facing the issue of 
biological and chemical acts of terrorism. As you said, we have 
lots to do, and we will do it. What I am saying now, we will 
try to do it together.
    Secretary Thompson. Thank you.
    Senator Akaka. Thank you, Mr. Secretary.
    A clear refrain from the hearings we have held was that a 
cultural divide existed between the law enforcement and public 
health communities. It was evident then that the United States 
lacked a cohesive strategy to respond to terrorist attacks 
involving weapons of mass destruction. The following points 
were apparent from our joint hearing in October.
    Local first responders lack the resources to respond 
quickly. Emergency responders must be able to communicate and 
coordinate seamlessly in the event of terrorist attacks with 
WMD. Local public health officials lack the capability to 
detect and identify harmful biological agents rapidly.
    At the October hearing, Secretary Thompson and I agreed 
that current methods were not adequate to deliver continuous 
monitoring of the air, water, and food supplies of the United 
States. We are not effectively coordinating biological agent 
detection research at Federal agencies and academic and 
industrial laboratories. The Federal Government is not 
unprepared to deal with WMD terrorism, but preparedness levels 
are not uniform across the United States.
    Much deserved attention has been paid to our crumbling 
public health sector. However, efforts to improve our public 
health infrastructure will not automatically trickle down to 
the medical community. Adequate WMD terrorism training of 
health care professionals has been hindered by a lack of 
economic incentives for hospitals and clinics. Local and 
community hospitals should have the best training and 
information in order to protect and treat Americans.
    I recently introduced legislation, Mr. Chairman, to support 
the development of technologies to minimize the impact of 
bioterrorism by alerting authorities and medical personnel to a 
biological threat before symptoms occur. Another bill I 
introduced will use existing capabilities in the national 
disaster medical system to strengthen bioterrorism preparedness 
and to expand WMD emergency training opportunities for health 
care professionals. This legislation will continue the dual 
national goals of advanced biological agent detection 
technologies and improved emergency medical response training.
    Again, I want to welcome the Secretary to the panel and our 
other witnesses today for our hearing and I look forward to 
learning what the Department of Health and Human Services has 
done in its enhancement in the past 6 months to improve our 
public health and professional medical response to potential 
terrorist attacks with weapons of mass destruction.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka.
    Senator Dayton, would you like to make an opening 
statement?
    Senator Dayton. Mr. Chairman, thank you very much. I would 
not. I would just like to hear from the witness and I would 
like to thank him for his continuing excellent service to our 
Nation following up on his distinguished service as governor.
    Chairman Lieberman. Thank you, Senator Dayton.
    Secretary Thompson, on behalf of all of us, thanks for the 
job you are doing, thanks for being here, and we now look 
forward to your testimony.

    TESTIMONY OF HON. TOMMY G. THOMPSON,\1\ SECRETARY, U.S. 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES, ACCOMPANIED BY JERRY 
                             HAUER

    Secretary Thompson. Thank you very much, Chairman 
Lieberman. It is an honor to be in front of you. It is a real 
honor for me to get an opportunity to tell this Committee what 
the Department of Health and Human Services is doing and has 
done and will continue to do. Senator Thompson, who is not 
here, Senator Collins, Senator Cleland, Senator Akaka, Senator 
Dayton, and Senator Bunning, it is my privilege to be in front 
of you today and thank you so very much for inviting me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Thompson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    All of you have been staunch supporters of our efforts on 
the homefront in this war. We share a commitment and a passion 
to ensuring that Americans can live their lives in safety and 
security. Let me begin by thanking you so very much for your 
dedication and your patriotism.
    Building America's preparedness for a bioterrorism attack 
is absolutely of paramount importance to the security of our 
country. Should an attack occur, the President is absolutely 
committed to making sure that we are ready to handle it quickly 
and successfully. Over the past 6 months, the President has put 
forth bold plans to build America's homeland security. We 
appreciate the support of Congress for the administration's 
supplemental request last year and we appreciate your continued 
support as we work out a 2003 budget.
    As you know, the Department of Health and Human Services 
and my office have been working at breakneck speed to build our 
bioterrorism preparedness, particularly since the attacks of 
September 11. This has included everything from enhancing our 
pharmaceutical stockpiles to building a stronger public health 
infrastructure, which all of us have to admit was in disarray 
and now needs to be bolstered, built, and completed. The 
speeding up of research and to do medicine and diagnostic 
tools. We continue to get stronger each and every day and I am 
extremely proud, Mr. Chairman and Members, to be able to come 
to you today to report on the progress that we have made with 
your support.
    Today, I would like to update you on some of the measures 
that the Department of Health and Human Services has taken 
already to bolster our overall preparedness and our ability to 
respond. Let me begin with our efforts in strengthening the 
partnership between the Federal, the State, and the local 
governments. In short, we are building a much more cohesive 
public health system and doing so faster than many people 
thought possible.
    Within just 3 weeks after the President signed the 
supplemental appropriation on January 10, our Department, 
working almost around the clock, put together a program in 
structure for dispensing $1.1 billion to the States for public 
health system improvements. We are quite confident that no 
Federal program of similar size has been created so quickly or 
that money of this caliber was moved out of the Federal coffers 
so quickly after our legislation became law. But it is a sign 
of our commitment and our passion to build correctly, but build 
rapidly.
    By January 31, we gave States 20 percent of their share, 3 
weeks after the signing of the law, of the $1.1 billion program 
and asked them to get back to us by April 15, which was this 
week, a comprehensive plan for how they would spend the 
remaining 80 percent to be able to build a stronger, more 
unified public health system in their respective State. The 
vast majority of the States gave us the proposed plans. They 
came in this week. And the CDC and HRSA are beginning to review 
them. We have given about 12 States and territories a dozen 
extensions.
    The very infusion of this unprecedented level of money into 
States is going to force cooperation and the strengthening of 
our Nation's health system, and I would like to report that we 
are going to analyze and critique and get back to the States 
within 30 days all of the reports and give out the remaining 80 
percent of the money. That is how fast we are moving.
    States, counties, and communities, law enforcement, 
hospitals, and the medical community are all going to have to 
come together, and we are forcing them to develop that 
cohesive, comprehensive public health system that will be able 
to handle a bioterrorism event, and those efforts are going to 
be linked and coordinated with the Federal Government, and that 
is what the comprehensive plan is all about.
    And to further strengthen our public health system, the 
budget for 2003 provides for another $518 million specifically 
to build up hospital preparedness. We had $135 million in the 
supplemental bill that went out to hospitals under HRSA. Now we 
are requesting an additional $518 million to build upon that 
comprehensive, especially in the area of surge capacity for 
regional hospitals. We expect this money to be used to upgrade 
the capacity of hospitals, outpatient facilities, emergency 
medical service systems, as well as poison control centers to 
care for victims of bioterrorism.
    In addition, the CDC is going to provide support for a 
series of exercises to train public health and hospital workers 
on how to treat and be able to control bioterrorism outbreaks 
together. So, as you can see, one of our highest priorities 
right now is building a stronger and a much more coordinated 
public health system that works closely together in a time of 
crisis. And again, we are moving as fast as possible and 
getting stronger as each day passes.
    A crucial part of bioterrorism preparedness is the 
development of vaccines and the maintenance of the National 
Pharmaceutical Stockpile. We are purchasing enough antibiotics 
to treat up to 20 million individuals for exposure to anthrax. 
We are purchasing sufficient smallpox--and I would like to 
point out, when I took over, there was only an order for 40 
million doses of smallpox vaccine to be delivered either in 
2004 or in 2005. Since I took over, we have increased that 40 
to 54 million from one company, 155 million from another 
company, and we have 15.4 million in our stockpile which can be 
distilled down five-to-one for 77 million, plus we just picked 
up an additional 85 million doses from Aventis Pasteur, which 
will give us well over 286 million doses of vaccine, enough for 
every man, woman, and child, by October of this year. Nobody 
thought it could be done.
    We are purchasing also additional push packages, going from 
400 tons of medical equipment in antibiotics and other 
medicines, from 400 tons to 600 tons, from eight push packages, 
which are now strategically located around the United States 
and in Hawaii, to 12. So we will have much more medicine 
supplies available and be able to move it. Our plan is to be 
able to move it within 12 hours, but we were able to move 
within 7 hours to the City of New York on September 11. That is 
how fast we are able to respond.
    We found that one of the problems was we can move it faster 
than the local units of government can handle it once it 
reaches the tarmac at a particular community. So we are now, in 
our comprehensive planning, we are finding ways in how we can 
bolster that so not only can we move it rapidly, but the local 
individuals will be able to dispense and be able to break it 
down faster to get it to the hospitals and to the areas where 
it is needed.
    We are also taking aggressive steps to improve laboratory 
security and to be able to protect our food supply that you, 
Senator, and I have discussed many times, and accelerate the 
research necessary.
    While we are doing a great deal right now to strengthen our 
infrastructure, we have also made it clear that improving our 
bioterrorism readiness will be an ongoing endeavor. That is why 
the President has put forth a bioterrorism budget for HHS of 
$4.3 billion, which is a 45 percent increase.
    Mr. Chairman, this is the largest one-time investment in 
the American public health system ever. We are absolutely doing 
what it takes to make America secure and we are working to 
ensure that our efforts are coordinated from the highest levels 
of the Federal Government to the most local levels of health 
care delivery.
    And along with the new monies I just mentioned for 
hospitals, the President's budget provides $1.7 billion for the 
National Institutes of Health for research into new vaccines 
and diagnostics. We are ready for smallpox, but we want to go 
to the next level for anthrax. We want to develop a new vaccine 
that is better than the one that is currently being used. We 
are also looking for ways for plague, botulism, the hemorrhagic 
fever viruses, and tularemia. The FDA is also going to see an 
increase for its review of vaccines and diagnostics and the CDC 
will see increases for the security of its facilities, as well 
as updating their badly needed lab capacity.
    Nine-hundred-and-forty million dollars for State and local 
organizations to continue their laboratory capacity, increase 
epidemiological expertise. We want to get an epidemiologist in 
every community that has a county of over 150,000. Provide for 
better electronic communication and more distance learning. And 
support expanded focus on cooperative training between public 
health agencies and local hospitals. This includes funding for 
the Laboratory Response Network, which we have set up, which 
improves a system now of over 80 public health laboratories 
specifically. And to be able to develop for identifying 
pathogens that could be used for bioterrorism.
    We are working to connect every major county and 
metropolitan region with the Health Alert Network. We are at 68 
percent capacity right now. We think by the end of this year, 
with this new money, we can go from 68 percent to 90 percent of 
the population in the United States to be covered by the Health 
Alert Network.
    Five-hundred-and-eighteen million dollars under the 
Hospital Preparedness Program to support outbreak response and 
control. It includes funding for the training of public health 
and hospital staffs. The increased focus on local and State 
preparedness serves to provide the funding where it best serves 
the interests of this great Nation.
    One-point-seven billion dollars for research. The NIH is 
researching for better anthrax, as I indicated, plague, the 
hemorrhagic fever viruses, and so on.
    Ninety-eight million dollars, and thanks to you, all of 
you, for supporting this, in order to keep our food supply. I 
have testified in front of this Committee and others that I am 
more worried about food pathogens right now because we only 
inspect less than one percent of the food coming into our 
Nation. We only have 125 food inspectors, ladies and gentlemen, 
for 175 ports of entry. It tells us that this is an area that 
we have to look at. We have been able now, because of your 
support, to be able to double the number of inspectors we have 
at FDA. Our budget proposal is going to support a substantial 
increase in this number of safety inspections for FDA-regulated 
products that are imported into this country.
    A-hundred-and-eighty-four million dollars to upgrade our 
Federal laboratory facilities and capabilities. This includes 
money for the completion of a second infectious disease 
laboratory, an environmental laboratory, an infectious disease 
bioterrorism laboratory in Fort Collins, one that they can only 
do research once in a while because of the decrepit conditions 
of that particular laboratory. I have pictures that I would 
like to show the Committee and you could see why it is badly 
needed for this particular laboratory.
    We are going to have an environmental toxicology lab and a 
communication and training facility in Atlanta. This funding 
will enable the CDC to handle the most highly infectious, 
Senator Cleland, and lethal pathogens in the world.
    We hope the Senate will continue to support the 
administration's effort to strengthen our public health system 
throughout the Nation. We need this partnership in a bipartisan 
way and I thank you for your past support.
    Here at HHS, we are strengthening our coordination, as 
well. When I first arrived a little more than a year ago, I 
began elevating the bioterrorism efforts into my office and 
found that there was nobody there when I came in that actually 
coordinated our activities. I named Scott Lillibridge, Dr. 
Lillibridge from CDC, as my special assistant on bioterrorism. 
This was the first time that bioterrorism had been given such 
attention at the highest levels of HHS.
    Since then, we now have created--I took one of my hearing 
rooms, my big conference room right across from the Secretary's 
office and I have turned that into the Office of Public Health 
Bioterrorism, which we are able to monitor things 24 hours a 
day, 7 days a week from all over the country. We are able to 
deploy personnel and medicines from there at a minute's notice, 
which has the task--this office has the task of coordinating 
and overseeing the bioterrorism preparedness and the response 
activities of all the various agencies within HHS.
    This office coordinates our efforts and makes sure that HHS 
is coordinated with also the other Federal departments, State 
and local governments, and other stakeholders. It also makes 
sure that our efforts are well executed.
    I have assembled a virtual bioterrorism dream team to staff 
this office. Dr. D.A. Henderson, an internationally acclaimed 
leader in public health, is the Director, and working side by 
side and also with me today is Jerry Hauer, a world renown 
emergency response expert who we were fortunate to get from New 
York City. Also on the team is retired Major General Dr. Philip 
Russell, one of the Nation's preeminent virologists, and Dr. 
Mike Asher, one of our Nation's leading laboratory experts.
    We also have strong relationships with our Federal 
counterparts, most notably homeland security. Tom Ridge and I 
have a very strong working and personal relationship going back 
to our days as governors. We and other teams have worked 
flawlessly together and I am very pleased with our working 
relationships also with Justice, the FBI, and the Department of 
Defense. In fact, the Department of Defense, with all their 
surgeon generals, were over this week in my Department and we 
were planning how we could interact their research and their 
medical teams with our medical teams. We work closely together 
and we share information effectively.
    The President is creating a strong and united team for 
defending our homeland and preparing for our response to an 
emergency.
    Mr. Chairman, you also requested that I mention a component 
of the President's management agenda that involves the 
consolidation efforts within the Department. In this budget, we 
are taking further steps to coordinate a variety of activities 
by consolidating our human resource, our building and 
facilities management functions, as well as public affairs and 
legislative affairs functions. These functions are very 
splintered right now, even within each agency.
    Mr. Chairman and Members, we have over 50 public relations 
departments. We have over 46 personnel departments. We have 
over 200 different computer systems. We have five bookkeeping 
systems. We have some of our computers that have 30-year-old 
software, and we are trying to bring this now into an 
integrated system, and that is what the management is all 
about.
    By consolidating and coordinating these operations, we will 
make sure that we are managing the taxpayers' dollars more 
efficiently and speaking to Congress and the American public in 
a clear, confident, accurate, honest, straightforward, and 
efficient manner.
    It is a common sense effort to make sure that when we 
communicate, it makes sense to the American people and the 
members of the House and the Senate. And in times of national 
emergency, clarity and accuracy are absolutely essential.
    In summary, our comprehensive effort shows that we are 
using all our resources at our disposal, from Federal agencies 
to States and localities, to build the strongest defense and 
response to bioterrorism. We are doing this quickly and 
smartly.
    Mr. Chairman, the Department of Health and Human Services 
is absolutely committed to working with you, the Members of 
this Committee, and Congress, as well as the other Federal 
agencies, the law enforcement communities, and our State and 
local public health partners to ensure the health and the 
medical well-being of all of our fellow Americans. We have made 
substantial progress to date in enhancing the Nation's 
capability to respond to biological or chemical acts of 
terrorism, but there is much more that we can do and will do to 
strengthen that response.
    In April 1861, as danger loomed before the Union, Abraham 
Lincoln issued a two-sentence directive to the then-Governor of 
Pennsylvania who had asked his opinion on what to do. He said, 
``I think the necessity of being ready increases. Look to it.'' 
It is in that spirit of swift, effective preparation for the 
unknown that we pursue our efforts. We will not rest and we 
will not falter until America is as prepared as it possibly can 
be.
    So I thank you for your support, Mr. Chairman and Members, 
very much for your time, as well, this morning. I would be 
pleased now to answer any questions you or Members of the 
Committee may have.
    Chairman Lieberman. Thanks very much, Secretary Thompson, 
for all you have done since last you were here. I think we all 
agree that we have come some way and we have got a ways to go 
to prepare our Nation to cope with chemical and terrorist 
attacks.
    If I asked you on a scale of one to ten, with ten being the 
highest level of preparedness, where would you say we are now 
as a Nation?
    Secretary Thompson. Once the money is out, I would say we 
are at six, going on seven.
    Chairman Lieberman. OK, so we have come some ways, but we 
have got to go some ways together yet.
    Secretary Thompson. Absolutely.
    Chairman Lieberman. I appreciate that, and that would be 
about my estimate if you asked me that question.
    Let me ask you about what you said about funding for 
hospitals to meet surge capacity. First, just for the record 
and for those who are listening, give us a little bit of a 
definition of what surge capacity means in this case.
    Secretary Thompson. Surge capacity means being able to take 
care of a minimum of 500 to 1,000 individuals immediately in 
case of an event such as a bioterrorism attack, such as 
anthrax, such as a chemical spill, such as a chemical terrorist 
attack, such as a nuclear attack.
    What we are doing in that regard, is asking the local 
health departments to meet with the State health departments 
and for the State medical system to develop a regional surge 
capacity right now, within their States, within their 
comprehensive plans. Then 2 days ago, I met with the surgeons 
general of the Department of Defense with regard to being able 
to incorporate--to be able to move in some of their mobile 
hospitals in case a more calamitous type of event takes place.
    So we want to integrate with the Department of Defense. We 
want to integrate with the State health departments so that we 
have surge capacities in every region of the country taken care 
of immediately. We want to make sure this year we are able to 
have surge capacities in every State, hopefully up to 500, and 
then, hopefully, up to 1,000 within the next 18 to 24 months.
    Chairman Lieberman. So that is the goal now, that within 
every State, we would have surge capacity up to 1,000 in every 
State?
    Secretary Thompson. Yes.
    Chairman Lieberman. Do we have----
    Secretary Thompson. Now, in the case of smallpox, that is 
different, if I might.
    Chairman Lieberman. Yes, please. That is exactly what I was 
thinking about.
    Secretary Thompson. With smallpox, what we would like to 
do--we would like to be able to have a large area to be able to 
quarantine. We may have a convention center. What we would do, 
is go in and inoculate--vaccinate the first responders, the 
medical personnel, and then those that would be sick, if, in 
fact, there was ever a smallpox outbreak. We would then have 
concentric circles around which we would vaccinate all those 
individuals, and then we would build a larger circle, and that 
is how it was worked out before. So, on chemical emergencies 
and smallpox, we have different ways and different 
opportunities as to how we would handle a surge capacity need.
    Chairman Lieberman. I think, as I hear you answer the 
question in that detail, that we have entered a surreal world 
which you and I would not have guessed we would be talking 
about a year ago, but it is where we are and I think it is very 
important that you do exactly what you are doing, which is to 
work through the scenarios that are worst case so we are ready 
for them.
    I hope that you will push both the administration and us in 
Congress in terms of funding. As significant as the additional 
funding requests by the President have been, if you decide that 
we need more in the years ahead, I just think this has to be 
now our No. 1 priority. We have to do whatever we can to meet 
it.
    Let me go on to a different area and that is the question 
about the weakness in our preparedness because of the lack of 
efficient mechanisms to communicate. One of our witnesses on 
the next panel in his written testimony points out that the 
Chief of Infectious Diseases at one of America's best hospitals 
said that in the midst of the anthrax crisis, he had to get his 
medical information from CNN. If we had another biological 
attack today, would those communications problems be any less 
severe, and if so, why?
    Secretary Thompson. We have right now 68 percent of the 
population covered by CDC's Health Alert Network. We are going 
to be able to expand that this year, up from 68 percent of the 
population being covered to 90 percent. My goal is to have 
every health department eventually hooked up to the Health 
Alert Network.
    CDC, and I do not want to question the individuals who are 
going to be following me in this testimony, but CDC puts out 
weekly reports to doctors. Their medical report went out on 
infectious diseases, especially on anthrax. We had weekly 
communications with doctors and State medical societies and 
hospitals and emergency workers hooked up with CDC. We are 
going to be able to expand that, especially with the additional 
money that is going out, and we are hopeful that we are going 
to be able to get this information very quickly.
    We are also going to be putting exercises out into the 
States. The health departments--part of the comprehensive plan 
is that the health departments have got to put an educational 
program put out by CDC into the hands of emergency workers and 
the emergency doctors, because that is where the problems would 
first arise. So we are already taking that into consideration. 
That is all part of the plans that the States put in.
    We have also divided the country up into different areas so 
that we can send experts in from CDC as well as from our 
medical assistance teams. We have about 82 medical assistance 
teams across America right now, about 7,000 personnel that we 
can send in within hours after an event.
    Chairman Lieberman. Is the communication network also going 
to make use of existing media, television, radio, and 
satellites?
    Secretary Thompson. That is one of the new buildings that 
is going to be built. Hopefully this year, the planning is 
going to start for a new communication building on the CDC 
campus. It is one of their next major capital expansions. Also, 
we have a website that every day has got new information on it 
through CDC and NIH and through the Department of Health and 
Human Services.
    Chairman Lieberman. Let me ask a final question before my 
time expires. As you know, during the anthrax crisis, there was 
some concern about exactly who was speaking for the 
administration, which led to some confusing and conflicting 
messages. In the event of an attack today, is it clear who 
would oversee communication with the public?
    Secretary Thompson. Yes. Right now, it would be our new 
Center for Bioterrorism, which is headed by Dr. D.A. Henderson 
and the doctors that I mentioned, in collaboration with CDC, 
NIH, and FDA.
    Chairman Lieberman. So that Dr. Henderson----
    Secretary Thompson. That would be the health thing.
    Chairman Lieberman. Right.
    Secretary Thompson. But then the White House would have 
their spokesperson and Homeland Security would have their 
spokesperson. But as relates to health information coming out 
of the Department, it would come out of our Center for 
Bioterrorism Preparedness.
    Chairman Lieberman. I presume, or let me ask, would there 
be coordination between the three, between that center, 
Governor Ridge, and the White House?
    Secretary Thompson. Yes. There is right now and I am sure 
there would continue to be. I cannot imagine--but as far as the 
Department, it is well coordinated right now and it would all 
go up through the Office of Public Health Preparedness.
    Chairman Lieberman. Thanks, Secretary Thompson.
    My time is up. I am going to yield to Senator Collins and I 
am going to give the gavel to Senator Cleland, as I have got to 
go off and participate in a debate on the floor. But I thank 
you very much and look forward to continuing to work with you.
    Secretary Thompson. Thank you very much, Mr. Chairman, for 
being here, and thank you for calling us.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you. Secretary Thompson, let me 
begin by thanking you for your strong and effective leadership. 
I think we are very fortunate to have you serving in this 
critical post at this very challenging time.
    I also want to thank you for again recognizing this morning 
the vulnerability of our Nation's food supply and the gaps in 
the regulatory framework. As you know from our previous 
discussions, back in 1998, I chaired hearings in the Permanent 
Subcommittee on Investigations that looked at the safety of 
imported foods. We did an in-depth investigation that revealed 
the statistic that you quoted this morning, that fewer than 1 
percent of imported food shipments are inspected, and we also 
found that the system was very easily circumvented by 
unscrupulous shippers.
    For example, tainted food that was checked at the border 
and inspected and rejected often was reshipped into the United 
States through another port. There was port shopping because 
the food was not required to be destroyed, nor was it clearly 
marked as rejected.
    That gives me great concern, because if the system was that 
easily circumvented by an unscrupulous shipper, think what a 
concerted, sophisticated terrorist network could do.
    So I am very pleased that there are additional inspectors 
on the way. I understand that the FDA intends to hire an 
additional 670 employees, which will include inspectors, 
scientists, and compliance officers. Given this significant 
increase in the number of inspectors, do you have a goal for 
how many inspections will be performed? There are a lot of 
other steps that need to be taken that are included in the 
legislation that has passed the Senate, but do you have a goal 
for increasing the number of inspections?
    Secretary Thompson. We do not have a goal, Senator. We are 
going to address that when we get all our inspectors trained. 
We also want new equipment because we have a very antiquated 
system right now. You bring food in. It may be tainted. It has 
to be taken off of a truck or off the airplane, then it has got 
to be sent to a lab, maybe in Kansas, and then the shipment has 
to be held, impounded until we get the lab analysis back. We 
are trying to make sure that we have faster and better lab 
analysis at the place that the food is taken off, to check it 
and make sure it is not tainted.
    We also, of course, as you know, support your language in 
the legislation. It is very powerful language as far as 
shipments coming into ports. We support you for your leadership 
on that.
    The conference committee is working on this particular bill 
right now. There are a lot of good things in there. We want to 
be able to reject food at the port of entry, send it back. We 
want to be able to tell a company or an individual that has 
sent in tainted food before, prevent them from shipping again. 
We want to be able to track back where this food is coming 
from.
    All of these provisions are in the legislation. We are 
hopeful that the conferees will be able to reach an agreement 
and get it to us because we badly need those tools.
    Senator Collins. I am very pleased to hear you endorse 
those provisions, which I worked very hard to have included in 
the bioterrorism bill. They have been subject to criticism by 
some. I hope we can hold the line because I believe they are 
absolutely essential if we are going to improve the safety of 
imported food and close what I think is a real gap that makes 
us extremely vulnerable.
    I want to follow up on an issue that Senator Lieberman 
raised. One of the major criticisms of our handling of the 
anthrax attacks involved the problems of communication and 
coordination. Obviously, we need to do everything we can to 
improve communication among the various levels of government as 
well as providing prompt and accurate information to help 
professionals and hospitals. I, too, was struck by the 
statement in the written testimony of the witness to come, who 
is Chief of Infectious Diseases at one of our Nation's best 
hospitals, and yet he said that he learned a lot of the medical 
information from CNN.
    Is part of the rationale behind the consolidation plan that 
you have outlined today intended to improve the flow of 
information and better ensure health care professionals are 
receiving consistent, accurate, and clear information?
    Secretary Thompson. The consolidation would not have much 
of an impact on that because the information going out to the 
emergency wards, going out to departments of health, and so on, 
for medical personnel comes from CDC. That will continue. It 
has to come from CDC because they are the experts and they are 
the ones who get the information. It will be better coordinated 
and it will be faster and better. But right now, we want to 
make sure we get the Health Alert Network up.
    What we are talking about in consolidation is to make HHS 
more effective. We have over 50 public affairs departments, 
divisions in the Department of Health and Human Services and it 
is impossible to get a coordinated and correct dissemination of 
the information that is necessary to the public out properly. 
We want this to flow up in collaboration with CDC, NIH, FDA, 
through the Office of Public Health Preparedness, which is 
headed by Dr. D.A. Henderson, so that we are able to make sure 
that it is correct, that it is straight, and is fast and gets 
out there.
    But as far as the medical information, that will come 
through the Health Alert Network. It will come on the website 
at CDC. It will come also from the direct communications from 
the laboratories. We have a communications system set up with 
80 laboratories across America, connected with CDC. All of 
these things will still continue out of CDC.
    Senator Collins. Thank you. My related question is actually 
a suggestion that results from a conversation that I had 
recently with medical director of the Anthem Blue Cross/Blue 
Shield insurance company. He pointed out to me that Blue Cross/
Blue Shield has electronic links and E-mails to virtually every 
doctor's office and hospital in the United States, and he 
suggests that in the event of an emergency, it, too, might be a 
network that the Department could use to disseminate 
information.
    I want to pass that on to you and I was interested to know 
whether there are any discussions with Blue Cross/Blue Shield 
or other insurers that might have the infrastructure that 
perhaps the Federal Government lacks at this point.
    Secretary Thompson. Absolutely. We are working on that 
right now. Jerry Hauer has met with the American Association of 
Health Plans, has met with Blue Cross/Blue Shield, how we can 
tap into their database. We are doing all these things. We also 
got the pharmaceutical companies, through all of their agents, 
distributing information to doctors' offices on various 
pathogens and how to discern various infectious diseases, such 
as anthrax poisoning. And so we are bringing all the private 
sectors we possibly can, using them for the dissemination of 
information across America to doctors.
    In our plans, we are also going to be setting up 
information and evaluations in emergency wards across America. 
These are going to be put out by CDC through the State health 
departments so that we get this information into the emergency 
wards of our hospitals so that they will be able to be better 
educated, be able to discern more quickly anything that might 
come up. Then they would report that through the Health Alert 
Network to CDC. They would report it to the laboratories. Those 
laboratories are connected with CDC and it would be almost 
instantaneous.
    Senator Collins. Thank you, Mr. Secretary.
    Senator Cleland [presiding]. Senator Carper, do you have 
any comments, remarks, or questions?
    Senator Carper. I have some questions, but I do not want to 
go out of line. I think others were here before me.
    Senator Cleland. Senator Bunning, do you have any comments 
or questions?
    Senator Bunning. First off, a lot of attention seems to be 
focused on combatting bioterrorism in an urban setting. 
However, much of Kentucky, as you might suspect, is not urban. 
It is rural. How will combatting a bioterrorist attack in a 
rural setting be different than in a city? Is there anything 
you are doing to specifically help rural communities?
    Secretary Thompson. Absolutely. What we are requiring in 
our planning is we are requiring every State health department 
to work with the local health departments, to work with the 
local first responders, and the law enforcement officials to 
develop these comprehensive plans that are coming in.
    Kentucky has sent in their plan this week and their plan is 
going to be evaluated first by CDC. It is also going to be 
evaluated by HRSA for their hospitals. Then it goes to our 
Office of Public Health Preparedness and they will evaluate it 
and make suggestions, if needed, may approve it, may make 
suggestions. We have also sent out templates to all the health 
departments with regard to what are the best practices that we 
have been able to find so they have something to work from.
    In the case of Kentucky, they will be working on how to 
make sure that rural areas in Kentucky are properly prepared, 
working with the first responders, the public health 
departments, as well as everybody else, and we have sent out 
templates and we have got people from various States, both 
rural and urban, coming in to offer consultation to us with 
regard to these plans.
    Senator Bunning. I understand that, Mr. Secretary, but as 
far as our health care system and public health facilities in 
Kentucky, most of the rural people have to come to urban areas 
to get their health care public health services.
    Secretary Thompson. Right.
    Senator Bunning. Therefore, if some kind of bioterrorist 
attack would occur, say, in Laurel County, in London, Kentucky, 
the closest city is Lexington, which is about 65 or 70 miles. A 
lot of infection can happen, if it happened to be smallpox, by 
just going into Lexington. So are you telling me that----
    Secretary Thompson. In the case of smallpox, we would 
quarantine that area. We would move in immediately.
    Senator Bunning. If you knew it was there.
    Secretary Thompson. But we have to find out where it is, 
and then we move in immediately.
    Senator Bunning. You would quarantine the area that you 
would find----
    Secretary Thompson. Immediately.
    Senator Bunning. Immediately.
    Secretary Thompson. And we would send in people----
    Senator Bunning. And try to spread out a--would it not be--
--
    Secretary Thompson. We would be able to ship in medical 
supplies, medical personnel, and experts from CDC within hours 
after that takes place. That is what the Health Alert Network 
is set up to do.
    Senator Bunning. OK.
    Secretary Thompson. That is what the laboratory analysis is 
set up to accomplish.
    Senator Bunning. Would it not be better if we inoculated 
and vaccinated our first responders up front?
    Secretary Thompson. We are looking at that right now, 
Senator, but there are problems with the inoculation of the 
smallpox vaccine.
    Senator Bunning. Sure there are. I mean, if you did 270 
million people, you would have 2,000 or 3,000 deaths.
    Secretary Thompson. That is right.
    Senator Bunning. I understand that.
    Secretary Thompson. And there are some----
    Senator Bunning. But if you are doing the first responders, 
you are not doing 270 million people.
    Secretary Thompson. And that is what we are looking at 
right now. We have got a group of specialists from CDC and NIH 
and from my office that are working on this right now, along 
with State medical societies and input from other medical 
personnel. They are evaluating right now whether or not first 
responders should be inoculated.
    Senator Bunning. Well, you are going to have to do it if 
you have an attack.
    Secretary Thompson. That is correct.
    Senator Bunning. And as long as it is good for how many 
years, an inoculation? It used to be 10 years. I do not know 
what your new or improved version might be, but----
    Secretary Thompson. The common position is it is good for 
10 years, but there seems to be, from the experiments and the 
evidence we have right now, it is longer than that, Senator 
Bunning, that there is a residual reserve capability or 
capacity to prevent smallpox.
    Senator Bunning. I want to go back to a ``60 Minutes'' 
interview last September. You made a statement that the United 
States was ``prepared to take care of any contingency, any 
consequence that develops, for any kind of bioterrorism 
attack.'' You also said that ``we would advise on television, 
on radio, exactly what to do'' and that we would ``have people 
there within hours to take care of it, set up an action plan 
and we will implement it.''
    In light of all that we have learned about our preparedness 
to handle a bioterrorist attack during the anthrax attacks, do 
you think making this generalized statement was a mistake or 
just premature?
    Secretary Thompson. I think that we are better prepared--of 
course, we are much better prepared today than we were then. We 
were much better prepared than a lot of people thought. There 
are a lot of consequences that came in. The statement was too 
broad. But I wanted to make sure that people were----
    Senator Bunning. Well, I understand the calmness and the 
assuring of the American people.
    Secretary Thompson. But we responded very effectively, 
Senator Bunning, and there were billions, in fact, trillions of 
spores of anthrax that were sent through the mail--and it was 
the great medical personnel that we had at CDC and the local 
health departments that prevented a lot more deaths. Am I 
satisfied with the five deaths? Absolutely not.
    Senator Bunning. No one is satisfied, but I think that 
attack was limited very well as it turned out.
    Secretary Thompson. It was, and it was because of the 
expertise that we had and the preparation that had been made by 
the Department of Health and Human Services, CDC, and NIH. And 
now we want to go to the next step.
    There is no question, Senator, that the local and State 
public health system in America needs a lot more infusion of 
dollars and better preparation. That is why we are demanding 
these plans be submitted, and we are hopeful with this planning 
process and the $1.1 billion that we will be sending out that 
we can build a local and State public health system that is 
national in scope, that will be able to handle a bioterrorism 
attack, and that is what we are getting prepared for. It is a 
legacy that you can have and the Department can have and 
America can have.
    Senator Bunning. I pray for you, then, today and into the 
future, because we not only have to be prepared, we are going 
to have to be also very fortunate to be able to identify and 
quickly treat any kind of a bioterrorism attack and I wish you 
godspeed.
    Secretary Thompson. Thank you very much, Senator, but if I 
could just quickly respond, that is why we divided the country 
up into medical assistance teams, individuals we can activate 
quickly to be sent in at a very short period of time. That is 
why we have expanded our push packages from 8 to 12, our 
medical supplies, our medicines, our medical equipment from 400 
tons to 600 tons, and we have reduced the time from 12 hours, 
hopefully, down to 7 or 8 hours, that we can get 50 tons of 
medical supplies into Kentucky within 5 to 6 hours after an 
event. As soon as we are notified, we can dispatch that, and 
that is what we are hopeful to be able to accomplish and that 
is the planning that it is working on right now. And we are 
fairly certain that we can deliver on this.
    Senator Bunning. Thank you.
    Secretary Thompson. But the problem is, once it gets there, 
we have got to make sure that the local individuals are going 
to be able to use that equipment, use the medical supplies, and 
get it to the individuals quickly. And that is what the 
planning process is all about.
    Senator Bunning. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak. Thank you.
    Mr. Secretary, first of all, I want to say that what you 
have described here today is highly commendable. The speed with 
which you have responded and the progress you have made in 
terms of getting money out and getting supplies stockpiled, I 
think, is just outstanding and I think our Nation owes you a 
debt of gratitude for your efforts on our behalf, so thank you, 
sir.
    Secretary Thompson. It was the Department, sir, it was not 
me.
    Senator Dayton. I understand that, but it starts at the 
top.
    Secretary Thompson. Thank you.
    Senator Dayton. But it is a team effort, so I agree with 
you.
    Since you referenced the Kentucky plan, I have to evidence 
a parochial interest. Has Minnesota submitted a plan? I am not 
sure of the status.
    Secretary Thompson. Minnesota asked for a postponement this 
week.
    Senator Dayton. All right.
    Secretary Thompson. Minnesota asked for an extension to May 
15 to deliver their plan, Senator.
    Senator Dayton. Thank you. You mentioned the money that you 
have put out to the States and that you will be distributing 
additionally. In terms of local governments and local hospital 
units, public health facilities and the like, does that money 
go through the States to the local or does any of that go 
directly from your Department?
    Secretary Thompson. It goes directly from CDC and HRSA to 
the State health departments to implement their plan. They 
received 20 percent. Minnesota has received 20 percent of their 
amount of money. What is Minnesota going to receive? Minnesota 
will go through the State health department.
    But what we are forcing the State health departments to do, 
in conjunction with the governor, is to work with the city 
health departments, the county health departments, the 
hospitals, the State medical system, the first responders, and 
the law enforcement officials to develop a comprehensive plan 
for the State of Minnesota, and we have sent out templates of 
what we think a good plan should provide for. The State of 
Minnesota will send that.
    It will first be evaluated by CDC down in Atlanta. Then it 
will be evaluated by HRSA. Then it comes up to Washington, DC, 
where we have 11 teams to evaluate these plans after CDC and 
HRSA. Experts--doctors and so on from around the country, come 
in and evaluate the plans and make recommendations, and then 
they will be in consultation with the State health department 
officials about those corrections or modifications if there are 
any. And then the money will go out, hopefully by May 15, to 
those States that have submitted their plans and had them 
approved.
    We want the money to go out 30 days after a State has 
submitted a plan, and that is why we set up 11 teams and that 
is why CDC and HRSA are working this weekend to make the first 
evaluation.
    Senator Dayton. That is tremendous. Thank you.
    Secretary Thompson. Minnesota is going to receive 
$18,107,000.
    Senator Dayton. If they get their plan in eventually?
    Secretary Thompson. Yes.
    Senator Dayton. Thank you. It refers more to Governor 
Ridge's operation than your own, but I just want to ask the 
same question. I have had some complaints and a lot of concern 
by local officials in Minnesota that they feel they are out of 
the loop. They feel they do not have access to information 
regarding these developments and what their roles are supposed 
to be. Is that, as it relates to your department, then, the 
responsibility of the States to communicate with local units of 
government, as well, or is there a way in which they can 
directly access information, web pages, answering service, or 
anything?
    Secretary Thompson. The way we have got it set up, Senator, 
we have a web page both at NIH, at CDC, HRS, and the Department 
of Health and Human Services to get out the information. We 
have the Health Alert Network, which now is connected with 68 
percent of the counties and the population of America. And by 
the year's end, with the money that is going to be sent out, 
that should go up to 90 percent.
    Then we have what is called the laboratory network in which 
we have 80 laboratories, all the State laboratories plus some 
other laboratories, hooked up so that they have instant 
analysis, can communicate back and forth with one another and 
with CDC.
    And then if an incident breaks out, we will send an expert 
or experts from CDC immediately. If something would happen in 
St. Paul and there was an evaluation that there was anthrax, we 
would then send that to the State lab, send it to the CDC lab, 
get an evaluation. But in the meantime, we would send a team of 
experts from Atlanta to St. Paul to work with the local health 
department in St. Paul in the hospital, the emergency work to 
go over that patient to find out what needs to be done.
    Senator Dayton. The reference was made to CNN as a source 
of information. I would say that I received in the first 12 
hours a good part of my information from CNN and what I found, 
and I think other members of Congress found, too, is that our 
normal communication lines were ruptured or were so overloaded 
that communication was extremely difficult, sometimes 
impossible.
    You talk about the lines of communication you have 
established with States and with the public health centers that 
would be called upon in an emergency. How have you adapted that 
to the very real possibility that these traditional lines of 
communication might once again be disrupted or even ruptured?
    Secretary Thompson. Senator, we think we have taken that 
into consideration through the planning process and through the 
Health Alert Network, by expanding that through the websites 
and through the conference calls.
    At the height of the anthrax, we used to have weekly 
conference calls with CDC and with my office and sometimes with 
public health department officials. Anybody could call in and 
be connected. It happened either on a Thursday or a Friday. We 
also did it with the State medical societies. We did it with 
the emergency doctors. And those are the kinds of things, when 
there is an emergency, we would start that once again. But in 
the meantime, when there is not an emergency, we use the Health 
Alert Network, the web pages, and what is put out by CDC on a 
weekly basis on updates on medical analysis.
    Senator Dayton. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Cleland. Senator Carper, do you have any comments 
or questions?
    Senator Carper. I do. Governor, welcome.
    Secretary Thompson. Senator, how are you?
    Senator Carper. I am fine. How are you, my friend?
    Secretary Thompson. Good, my friend.
    Senator Carper. Glad that you could be with us today. We 
have gathered in our capital today, and this week, volunteer 
firemen and firewomen from around the country. About 250 will 
be at the National Fire Institute dinner this evening. I think 
the President is going to come to address them. We are having a 
ceremony honoring one of our fallen in Delaware, literally in 
the Capitol this afternoon. In some respects, they are our 
first line of defense in all kinds of emergencies, as you know.
    I would just ask, is there any message or anything that you 
would especially want me to convey to them on your behalf?
    Secretary Thompson. I would just say thank you. Thank you 
for the tremendous job that the men and women of the fire 
departments, volunteer as well as the paid officials, did 
during September 11. They were the calming influence in all 
communities across America. They truly did a yeoman's job and 
we are in their debt and I just would like to say thank you.
    Senator Carper. I will be happy to convey that.
    We had a hearing about, I want to say about 6 months ago 
when we were reeling with September 11 and then the anthrax 
attacks and have had an opportunity to do a whole lot. You have 
been very busy, your folks have, as well, and we thank you for 
your stewardship and for your leadership in some difficult 
times.
    I know that Senator Kennedy and Senator Frist have 
introduced legislation, I think it is called the Bioterrorism 
Preparedness Act. You may have commented on it in your 
testimony. I would ask you, could you share with me a thought 
or two that you have on what is good about it and maybe how it 
perhaps should be changed?
    Secretary Thompson. I think it is a wonderful piece of 
legislation right now. It sets up an Assistant Secretary for 
Biopreparedness Emergency in the Office of the Secretary. That 
office is currently being handled by Dr. D.A. Henderson. Jerry 
Hauer is the second in command there.
    It also allows us to do a lot for food inspections. It 
allows us to reject food that has been tainted in the past from 
a supplier, from a country. It also allows us to trace back the 
tainted food to the supplier. It also allows us to expand our 
inspections by giving us some additional personnel that we 
badly need. It also allows us to have a much better coordinated 
effort in bioterrorism through the Department of Health and 
Human Services.
    There is another big thing that the Senate, Senator 
Feinstein was very active in, and this was, of course, on the 
agents, the special agents. We had a meeting in the White House 
about it this week and what we are going to do is we are going 
to set up a register in the Department of Health and Human 
Services for all these agents, and then the Department of 
Agriculture has some of their own agents. We have duplication. 
And so the Department of Agriculture is going to have a list 
and be able to find out what agents are being utilized for 
laboratory investigations, what is being transported, and so 
on. The Department of Justice will have the opportunity to have 
instant access to the registers in the Department of Health and 
Human Services and the Department of Agriculture.
    Right now, the law is, Senator, that we can only--the only 
thing we monitor is the transportation, the transporting of 
these bio-agents. We do not know how they are used. We do not 
know if they have been used. We do not know what is in 
stockpile or so on. And this information, now, that this 
legislation is going to give us, is going to help us a great 
deal.
    Senator Carper. Good. In Delaware, we have been working 
over the last couple of years to put into place a disease 
tracking system. There is a name for it, the Delaware 
Electronic Reporting System. It would----
    Secretary Thompson. It is the best in the country, I might 
add, Tom.
    Senator Carper. Thanks for saying that. I wish I could take 
credit. Well, I will take credit for it. [Laughter.]
    Secretary Thompson. It happened while you were governor, so 
take credit for it.
    Senator Carper. One of the things I learned as governor is 
when things go wrong, accept the blame. When things go right, 
share the credit, so in this case we will give the credit to a 
lot of other folks.
    But I know that your Department is working on, I think, a 
similar national monitoring system and I was just wondering, 
how is it going? How far are you along there?
    Secretary Thompson. We have taken the template from 
Delaware and we have sent that to all the 50 State health 
departments saying this is a good example of how to be able to 
accomplish this objective. And so we have done that in many 
different areas, in communications, emergency preparations, and 
surge capacities, and we are sending that out and we are 
hopeful that they will use these templates to be able to build 
a very positive, comprehensive plan. But Delaware should get 
the credit because we have used it and I thank you for it.
    Senator Carper. Thank you. Thanks for sharing that credit.
    I have heard some people argue that a system like the one 
we are talking about, at least on a national level, would not 
enable us to detect future attacks like last fall's anthrax 
attacks. I do not know if you agree, and if you do, does this 
mean it is maybe a less worthwhile investment for us to make as 
a Nation?
    Secretary Thompson. What was that, Tom?
    Senator Carper. There are some who said that a system like 
we have in Delaware and that we are trying to spread across the 
country would not enable us to detect attacks like the anthrax 
attacks of this past fall. I do not know if you agree with that 
assessment, but whether you do or not, I wonder if that tempers 
at all your beliefs as to whether or not this is a worthwhile 
investment.
    Secretary Thompson. I think it is a very worthwhile 
investment and that is why we are trying to get it incorporated 
in all the State plans because we think it is important, that 
information.
    We also are looking for new innovations, Senator, on how to 
detect bioterrorism agents. There are some new innovations out 
there and we are hopeful to be able to maybe in the future get 
them in public buildings and the Capitol, and so on and so 
forth, that could discern if there is anthrax in the area. They 
have not been perfected yet. There are some out there, but 
there are a lot of innovations, a lot of new things that are 
coming to the Department, not only to our Department but the 
Department of Defense, and hopefully they will be able to 
discern when there is an agent in the vicinity.
    Senator Carper. I am struck by the number of usually fairly 
small businesses, small technology businesses, just in my own 
State who have been to see me to say, we have this technology, 
we have this device which we think is quite effective, whether 
it is detecting anthrax or some other agent. We have tried to 
provide a forum for them through the administration with the 
help of the Small Business Administration so that they may have 
an opportunity to present to the administration and the 
relevant agencies what they have worked on and what they have 
developed.
    I am just seeing what has come out of one little State. I 
cannot imagine what must be coming out of the rest of the 
country. My suspicion is that in Minnesota and Georgia and 
other places, that Senator Cleland and Senator Dayton are 
hearing from their businesses who are coming up with similar 
kinds of models that, frankly, we had not thought much about in 
recent years.
    Secretary Thompson. I think it is very positive.
    Senator Carper. The last subject is quite a different 
subject and I will just mention this as an aside. The 
administration was kind enough, I suspect with your urging, to 
invite a number of us in the Senate and in the House who were 
interested in next steps in welfare reform to a forum at the 
White House this afternoon that I am not going to be able to 
attend. I mentioned earlier we have a ceremony honoring one of 
our fallen fire fighters that will be in the Capitol literally 
right in the time frame that the event at the White House will 
be occurring on welfare reform. Do not judge my absence as a 
lack of interest.
    Secretary Thompson. I know.
    Senator Carper. We look forward to working with you on it. 
Thanks.
    Secretary Thompson. Thank you very much, Senator Carper.
    Senator Cleland. I thank all of the Members of the 
Committee for involving themselves in this discussion today, 
and again, Mr. Secretary, we thank you very much for your help 
here.
    I just want to get into some basic, fundamental conflicts, 
if you will, challenges, problems that we need to work out 
together, and I would like to just say again, I would like to 
work it out with you, with the Members of the Committee.
    Congressman John Lewis has said it beautifully, that we may 
have come to this country in different ships, but we are all in 
the same boat now, so we are in the same boat here.
    I was just sitting here thinking about the difference, the 
dramatic difference, I think, between, shall we say, a 
military/terrorism attack on the country and when that attack 
goes biological. First of all, I think an attack on the country 
requires some delivery system. We saw that initially the al 
Qaeda went after us at the Khobar Towers with a car bomb, then 
later with a truck bomb at the World Trade Center, the two 
embassies in Africa, then ultimately a boat bomb against the 
U.S.S. Cole, and finally a plane bomb against the World Trade 
Center and the Pentagon.
    So some overt attack to create mass destruction or 
confusion, which is the object of terrorism, which makes it so 
terrifying, requires some kind of delivery system. But if you 
take that attack biological, that really is very difficult to 
detect. The delivery system for killing 100,000 people could be 
one envelope delivered to Senator Patrick Leahy's office. The 
anthrax spores there, I am told, were enough to kill 100,000 
people.
    Secretary Thompson. That is true.
    Senator Cleland. So I think we have a new ballgame when the 
attack goes biological or chemical and it is interesting how 
there is really a dichotomy in law and a dichotomy in many ways 
in practice that we have now and that we have got to resolve 
and work out somehow that led to some of the problems, the 
initial problems with responding to anthrax.
    In many ways, I could boil it down this way. One part of 
our law, based on Presidential directive, says, in effect, the 
FBI is the lead dog, the lead agent, and HHS is in support of 
FEMA, a back-up agency, in terms of biological help. The other 
part of our law, which is actually in law, authorizes the 
Secretary of HHS to actually initiate certain things--we can 
get into that--to include investigations.
    It is interesting, too, we have a FBI and then we have a 
bug FBI. The bug FBI is the CDC. They have the epidemiological 
investigative service. So when things get buggy, they are the 
agent, in many ways, of expertise. They have been around 50 
years there in the CDC.
    Secretary Thompson. That is right.
    Senator Cleland. What I am trying to do is try to make 
sense of these great assets and instill or work out some kind 
of better coordination, cooperation, and communication.
    First of all, I think we have got to acknowledge some of 
the problems. Last fall with the anthrax attack, a bug attack 
which, thank God, the CDC quickly identified, therein, though, 
once the CDC identified it, it became this tug of war between 
public health agencies and law enforcement agencies. Just some 
examples.
    In Trenton, New Jersey, the FBI and public health agencies 
could not agree on who should take environmental samples, so 
they both did. In Washington, DC, health officials first 
learned that there was contamination in several Federal 
agencies from the news media, I guess CNN.
    In New York, law enforcement officials knew but failed to 
notify city health officials that a suspicious letter had been 
sent to NBC News until after the first case of infection 
surfaced. When the FBI took over in Florida after the CDC had 
identified the substance as anthrax, when the FBI took over in 
Florida, press briefings by public health officials halted at 
the FBI's request.
    Another example. Samples collected by the FBI in 
Washington, particularly in terms of the Daschle letter, were 
sent to military laboratories, Army labs at Fort Detrick, 
Maryland, for analysis, not to CDC.
    Finally, a Canadian study on anthrax showed that anthrax 
spores could escape sealed envelopes in large quantities. At 
least half-a-dozen U.S. agencies knew about this study prior to 
the anthrax attacks, but because of individual stovepiping of 
information, turf battles, budget battles, the CDC did not 
know. The CDC had received, interestingly enough, an E-mail 
regarding that study on October 9, before the Daschle letter 
arrived and before anyone at Brentwood fell ill, but no one 
there read it until November.
    The problem is, I think we have a problem. Senator Nunn has 
indicated something of interest. He played the President in an 
exercise called Dark Winter put on by Johns Hopkins in June of 
last year, about 90 days before the attack here on September 
11. That was a drill on a smallpox attack in America, and out 
of that, Senator Nunn testified before the Congress some 
challenges.
    He said, ``you have got an inherent conflict between health 
and law enforcement,'' and he said, ``and to the extent that 
they have not coordinated beforehand and do not know each other 
beforehand, before the occurrence took place, you would have a 
horror show because law enforcement has one set of goals and 
health officials have another set of goals.''
    What are those goals? Well, law enforcement deals in 
secrecy. I understand the FBI wants to keep things secret. The 
public health entities, from the CDC on down, deal in openness. 
They want to disclose and disseminate information.
    I am concerned that the protocols of response, of 
communication and coordination between Federal responders in 
the event of a bioterrorism attack are not clear.
    As I mentioned, executive documents seem fairly 
straightforward. The U.S. Government interagency domestic 
terrorism concept of operation plan, called CONPLAN, issued in 
2001, sets forth how the Federal Government will respond to a 
terrorist incident and how the various Federal agencies are to 
coordinate with one another in the event of such an incident. 
The CONPLAN draws on and is in accordance with authorities 
established in two Presidential directives, Directives 39 and 
62, the Federal response plan, including a lot of backup.
    The CONPLAN designates the FBI as the lead Federal agency 
for crisis management in the event of domestic terrorism. FEMA 
is designated as the lead Federal agency for consequence 
management to ensure that there is only one overall lead 
Federal agency at a time. And then HHS is in a support role 
under the CONPLAN.
    Now, interestingly enough, another directive that you are 
caught in is law. It seems that a law, the Public Health 
Threats and Emergencies Act, gives explicit authorization to 
the Secretary of HHS to declare a public health emergency on 
your own, in effect, and in the event of such declaration, to 
do whatever is necessary to respond to it, including 
conducting, not merely supporting but conducting your own 
investigations into the cause and means and steps to be taken.
    It seems under the CONPLAN, the HHS can do only those kinds 
of things in support, based on request. But the law, the Public 
Health Threats and Emergencies Act, in effect, says you have 
authority whenever the public health is in danger.
    I think somehow we have got to clarify this. I think you 
are caught in a bind. There are very real scenarios under which 
the interest of law enforcement and public health do conflict.
    May I say that the FBI, as the lead Federal agency, is 
generally the first agency to obtain new information. If it 
decides that a new piece of information has a bearing on public 
health, it then communicates that to health authorities. As a 
number of experts have noted, the FBI is not a public health 
agency. They may not necessarily know what information can be 
of significance to public health officials.
    I would like to know, what is your understanding now of the 
relationship between the roles of law enforcement and public 
health in the event of a bioterrorist attack on our country? Do 
you feel that you have sufficient authority under the law to 
initiate action, whether through the CDC or some other agency 
under your command, to, in effect, declare a public health 
emergency and begin preparing to deal with it?
    Secretary Thompson. As you know, Senator, I did declare a 
public health emergency on September 11, and did use that 
power. But I think it does need clarifying. I think you are 
absolutely correct. There seems to be some confusion, and so in 
order to have a more comprehensive way of getting the 
information out, we have set up what is called advisory 
committees. These are the committees set up by the State and 
local health departments and government, emergency management 
agencies, emergency medical services, Office of Rural Health, 
police, fire department, emergency rescue and occupational 
health workers, Red Cross and other voluntary organizations, 
the hospital community, community health centers, and other 
health care providers. These are the advisory committees that 
we have asked the States to put in their comprehensive plans so 
in case of an emergency, in case of a bioterrorist attack, 
these committees would come together and be able to distill the 
information and be able to speak with one voice.
    But at the Federal level, I think there is some confusion 
and if we could sit down with the Department of Justice and 
Office of Homeland Security, I think we could work it out. But 
there is very good cooperation. I do not want you to in any way 
imply from my answer that there is not good cooperation right 
now.
    For instance, we have somebody from CDC, and I do not know 
if you know this, Senator Cleland, that meets with the FBI 
every week with regard to new evaluations on anthrax. So we 
have one of our experts from CDC that meets with an FBI team 
weekly on their analysis. Jerry Hauer meets with them every 
other week with regard to the investigation on anthrax. And I 
meet with the Director and other members monthly as to new 
developments on anthrax. At the height of it, we met weekly.
    So there is great cooperation now, but in the law, in the 
emergency rules, there is some confusion that I think needs to 
be clarified.
    Senator Cleland. And it does seem to me that in case of a 
bioterrorism attack, a chemical attack, you have the agencies, 
the resources to deal with it and you ought to be the lead dog. 
There are other entities involved. I am not sure they make it 
better or worse for you to take the lead. There is now the 
Office of Homeland Security to coordinate with and now there is 
Dr. Henderson in your new office that you have created. You 
have got the CDC. You have got the NIH. You have got FEMA. You 
have got the FBI.
    I think that is my problem, is that we have got about 20 
different agencies involved in bioterrorism and what I am 
trying to do is kind of sort out the protocol here before the 
next attack. In other words, make sure people basically 
understand their role and responsibilities when the next time 
the popcorn hits the fan so that we do not have to go through 
the drills that we went through last fall.
    Secretary Thompson. FEMA now defers to the Department of 
Health and Human Services on anything and everything that deals 
with bioterrorism, and so that has been--it is not in the rule, 
it is not in executive order, but that is common practice. And 
the FBI has been very cooperative. In fact, I have just been 
corrected. We have a full-time official from CDC working in the 
FBI right now on the anthrax question.
    Senator Dayton. Mr. Chairman, could I just excuse myself? I 
am sorry to have to leave. I have a press conference call with 
the Minnesota press. I apologize for having to go. Mr. 
Secretary, thank you.
    Senator Cleland. Thank you very much.
    Secretary Thompson. Thank you, Senator Dayton.
    Senator Cleland. In the National Journal, HHS spokesman 
Kevin Keene is quoted as acknowledging that under the 
Department's consolidation plan, one agency or one voice or 
something like that, which is a noble enterprise, but I think 
we are concerned, I am concerned about whether or not this will 
add an additional layer of review by the Secretary's office. I 
mean, I understand about speaking with one voice. I also am 
interested in speaking with a medical or expert voice as 
opposed to a political voice.
    I just want to get your understanding of whether or not 
what you are trying to do is going to speed up, where speed is 
of the essence and communications is of the essence, or slow 
down information that your Department has that needs to be 
disseminated to the public.
    Secretary Thompson. I think it is going to speed it up and 
I think it is going to be much more effective, Senator. We do 
not in any way want to infringe upon the scientific utilization 
of the media. In fact, we encourage it. We want to make sure 
that CDC continues to have the Health Alert Network, continues 
to have their Public Affairs Department, continues to put out 
their MMWR on a weekly basis with information. We want them to 
continue to set up the conference calls with regard to how we 
get the information out. All of this is not going to be touched 
at all.
    What we are trying to do--we have got 50 different public 
affairs departments, 50 public affairs offices within the 
Department of Health and Human Services. In the case of a 
bioterrorism thing, we want to make sure that what is going on 
in CDC, at NIH, and FDA is coordinated with the new office, and 
hopefully the Assistant Secretary for Public Health 
Preparedness, and that is headed by Dr. D.A. Henderson, so that 
we are able to speak clear, concise, straightforward, directly, 
and quickly about the effect.
    What we did during the height of the anthrax things, we had 
people like Dr. D.A. Henderson, Dr. Tony Fauci from NIH, Jeff 
Copeland from CDC, myself, and other individuals who weekly met 
with the press and we had a teleconference call for any updates 
with regard to bioterrorism.
    We would incorporate that so that CDC, NIH, FDA, and the 
new office or Assistant Secretary's Office for Public Health 
Preparedness would be able to coordinate their message and get 
it out quickly, and usually by a doctor.
    Senator Cleland. Maybe I am just a little stream of 
consciousness thinking here. When the Secretary of Defense 
briefs the public, the press, on, say, military operations, he 
always has, in effect, the Chairman of the Joint Chiefs 
standing there to answer ``military expertise'' questions.
    It does seem like that in the homeland defense arena, the 
strategy for defending our homeland, if it becomes a biological 
issue, there are a number of bugs out there that we can be 
attacked with. It seems to me your great agency, particularly 
in the CDC, has the capability to draw upon some expert that 
knows about that and, in effect, becomes your equivalent of the 
Chairman of the Joint Chiefs of Staff standing there answering 
questions about that particular bug or device or gas.
    Secretary Thompson. That is why we put Jeff Copeland out 
just about--we made him available every week with regard to 
talking to CNN and talking to the press. We also made available 
the Surgeon General, David Satcher, and Dr. D.A. Henderson. 
They were the spokespeople, and Tony Fauci from NIH. Those were 
the spokespersons for the Department as relates to the medical 
provisions of bioterrorism.
    Senator Cleland. Experts in the field like Dr. Tara 
O'Toole, whose colleague Tom Inglesby we will hear from in the 
second panel, keep telling us that we need to have medical 
professionals out there answering questions and disseminating 
information.
    Secretary Thompson. I agree with that.
    Senator Cleland. It is interesting that in 1993, during the 
hanta virus outbreak, then-Secretary of HHS Donna Shalala 
deferred and let C.J. Peters, the Chief of Special Pathogens at 
the CDC, take the lead and be the voice of the public health 
establishment. I am sure you get that point.
    Budget issues--in 2000, the Congress committed to a 10-year 
master plan for revitalizing the CDC's World War II era 
facilities. I have visited those facilities. How did it get to 
be World War II? Well, first of all, in many ways, you had a 
little public health operation down there just off the field of 
a Naval air station and they were basically an Army operation 
dealing with malaria, and in many ways, that is how that grew 
there. Actually, back in the 1960's, it was Mr. Woodruff of 
Coca-Cola fame who worked with Emory to donate some land across 
from Emory and that became, in effect, the CDC headquarters. So 
it just kind of grew, but now very much in need of a master 
plan to bring it into the 20th Century and out of the World War 
II era facilities.
    In 2000, we put together about $175 million for buildings 
and facilities, actually in fiscal year 2001. Last year, after 
the anthrax attacks, we put together about $250 million. The 
President came to the CDC and praised the CDC for its work. 
That compressed the 10-year plan to about 5 to 7 years, which 
we felt was proper for the country to begin getting on top of 
the master plan because we could not wait another 10 years for 
some terrorist attack.
    It seemed to me that the Congress committed at that time to 
maintaining a funding level of $250 million per year 
specifically for CDC in campus buildings and facilities until 
the plan was complete. After we passed that legislation, we 
allocated an additional $46 million for security.
    The administration has proposed a total of just $90 million 
specifically for the CDC's master plan 2003, and I expressed my 
concern to you over this meager funding level and you were kind 
enough to write back. In your response, you wrote that the 
administration proposes $184 million for buildings, facilities, 
and security in fiscal year 2003 across the board, which when 
combined with $296 million the CDC received for buildings, 
facilities, and security last year brings a 2-year total to 
$490 million, seemingly close to the needed $200 million per 
year.
    However, the master plan that Congress committed to is for 
the upgrading and revitalization of the CDC's buildings and its 
facilities at its headquarters in Atlanta. Funds for needed 
security upgrades are not figured into it. Neither are funds 
for projects that are not located at the headquarters in 
Atlanta.
    Of the $184 million the administration has proposed for 
fiscal year 2003, $74 million is for the construction of an 
entirely new facility in Fort Collins, Colorado, and $20 
million for security. That leaves just $90 million for master 
plan-related projects, a lower amount even than the $175 
million Congress appropriated 2 years ago that will be required 
to keep us on a 10-year plan.
    My question is, where does the administration's proposed 
budget for the CDC put us in terms of implementing the 10-year 
plan?
    Secretary Thompson. Senator, let me tell you that I totally 
agree with the need to upgrade the CDC campus. I have been 
there. In fact, I spent a week there as I move my office around 
to various divisions. One week out of the month, I spend the 
week in Atlanta at CDC.
    There are three campuses at CDC, as you know. There are 24 
other rented buildings. A lot of the buildings on those 
campuses are old, dilapidated, a lot of laboratories, and a lot 
of security problems. There is no question that the $250 
million is needed. But when you are fighting a war both 
internationally and domestically through homeland security, you 
have given so much in dollars, you have to put together the 
best plan possible.
    We are putting $74 million into Fort Collins, which is a 
CDC building, which is badly needed. I do not know if you have 
seen the pictures, but it is absolutely badly needed. In fact, 
some of the research cannot be done during some of the months 
of the year because of ventilation and because some of the 
encroachment of mice and rats and snakes that get into the 
building. So that was a top priority. We had to do the $74 
million for Fort Collins.
    We have to build a new laboratory, a level four laboratory, 
at Fort Detrick, and we have to remodel some labs at NIH in 
Montana for NIH. So we looked at the amount of dollars that we 
had. We stretched them as far as we could go and that is what 
we ended up with.
    All I can tell you is that I fully support, and hopefully, 
next year, we will be able to do more for CDC. They need to 
consolidate and we need to get out of that rental space and we 
need to consolidate those buildings on three campuses. But with 
the dollars that we had, we put together the budget. We thought 
there were higher priorities this year because CDC got a nice 
tranche of money last year for buildings, and hopefully, next 
year, we will be able to do a better job.
    Senator Cleland. You can understand the fact that I feel 
strongly about this and will continue to push in the Senate----
    Secretary Thompson. I know you do, and I compliment you on 
it, Senator----
    Senator Cleland [continuing]. For additional monies for the 
CDC----
    Secretary Thompson [continuing]. And I want to work with 
you on it.
    Senator Cleland [continuing]. To stick to that effort that 
Congress committed itself to and the President, I thought, 
signed onto to collapse the 10-year master plan into about a 5-
year plan because we cannot wait on the next terrorist attack.
    I would like to just bounce off you this idea, this concept 
that I put forward, the National Center for Bioterrorism 
Preparedness and Response in the CDC. Again, most of the CDC's 
budget is broken down into allocations to centers----
    Secretary Thompson. Right.
    Senator Cleland [continuing]. In an effort to enhance 
coordination, cooperation, and communication, and 
accountability for these $6 billion or so we are spending on 
bioterrorism among 20 different agencies. In an effort to put 
together a nerve center that would operate 24 hours a day, 7 
days a week, and be available to provide our first responders 
and our citizen with what we need out there, you can understand 
that after looking at the master plan, I considered that it 
would be a logical step to put together a center there.
    Now, what do we mean by a center? One of the concepts that 
I had in mind is the concept by Jeff Koplan, the former CDC 
Director, about a $65 million center to address the most urgent 
security deficiencies in the agency. The current headquarters 
facility and emergency operations center are located in 
buildings less than 30 feet from a major street. The new, in 
effect, center, bioterrorism center, would be located in a 
secure spot and house a secure compartmental information 
facility for communicating with the Secretary of HHS, the White 
House, and intelligence agencies during an emergency.
    We have that kind of facility in the Pentagon for outright 
attacks. We do not have that kind of nerve center and facility, 
situation room, where everybody can be tied in and can 
communicate to one another really in times of a bug attack or 
bioterrorism attack or chemical attack, and it seems to me that 
that would be a logical step that we would include in the 10-
year plan. Do you have any comment on that?
    Secretary Thompson. Senator, I agree with you. I thought it 
was a great idea. In fact, we were going to look at 
reorganizing CDC to accomplish that administratively. But I was 
dissuaded, not by people up here, but I was dissuaded by the 
people in Atlanta that that was not a good idea, and they told 
me the reasons why.
    They said that we have bioterrorism in chronic diseases. We 
have bioterrorism in infectious diseases. We have bioterrorism 
activities in the National Center for Environmental Health. And 
we have bioterrorism activities going on at ATSDR for the 
Superfund. And we have bioterrorism activities going on with 
the State health departments. We think if you consolidated all 
of that into one center, that we would lose something in the 
process.
    So since they were the experts, I listened to them and I 
went along with that. But I have to admit that what you are 
saying has some merit to it and I would like to work with you 
and see if we could accomplish both objectives.
    Senator Cleland. I do not want to beat it to death. We are 
going to have Dr. Inglesby in a few minutes, and his testimony 
and statement says there is a need for experts from a variety 
of scientific backgrounds, experts in experimental biology, 
epidemiology, infectious disease medicine, anthrax vaccine 
science, and immunology to work together on bioterrorism 
events. That is his testimony. The CDC center would bring 
together these experts.
    Interestingly enough, in terms of an attack on this 
country, biological agents could be combined with chemical 
agents like sarin gas or weaponized in unknown ways. The 
combined expertise at the center, I think, could help.
    Dr. Jeff Koplan, the former Director of CDC, stated that, 
``Dozens of staff representing several of the laboratories and 
centers are dedicated to bioterrorism activities, but most do 
not focus exclusively on bioterrorism.'' That is the point, I 
think, you were making.
    Secretary Thompson. Yes.
    Senator Cleland. It is illogical to expect these staff to 
be more proficient and effective as a team when 70 percent or 
more of their time is spent on other duties and 30 percent or 
less on bioterrorism.
    I would just like to put some of these points in the 
record, and we will hear from Dr. Inglesby in just a moment.
    But it is something that I will continue to work on because 
it does seem to make sense, and also from the private sector, 
Bernie Marcus, the founder of Home Depot, along with Art Blanc, 
just donated $4 million to the CDC for the very purpose of 
equipping a nerve center like this, and I have noticed that 
they did not turn that down. [Laughter.]
    We will continue to press on in the vineyard.
    Secretary Thompson. I congratulated him and thanked him 
very much for that. We appreciate that.
    Senator Cleland. You have been very kind and very 
cooperative today. We thank you very much. We are in the same 
boat, and thank you for grabbing your oar and paddling like the 
dickens.
    Secretary Thompson. Thank you, Senator Cleland, for having 
this meeting and thank you for being here, and I want to 
cooperate with you and work with you on that bioterrorism thing 
and see if we can work it out so that we can come up with a 
comprehensive plan.
    Senator Cleland. Thank you, sir.
    We will have a 10-minute break before the second panel.
    [Recess.]
    Senator Cleland. The Committee will come back to order. I 
have been told that we will have a vote here momentarily, so 
let me just move right along.
    The Committee has heard an update from Secretary Thompson 
on the Department of Health and Human Services' public health 
preparedness for terrorism involving weapons of mass 
destruction, particularly biological agents. Committee Members 
have also addressed their concerns and proposals for 
Congressional action.
    We are very fortunate today to have our second panel of 
bioterrorism and public health experts to respond to our 
earlier discussion and to share your insights. I am very 
pleased to introduce our panelists.
    Dr. Margaret Hamburg is the Vice President for Biological 
Programs at the Nuclear Threat Initiative, put together by Ted 
Turner and run by Sam Nunn. Dr. Hamburg has testified at 
earlier hearings and has been an invaluable resource on 
bioterrorism and weapons of mass destruction.
    Dr. Tom Inglesby is Deputy Director of the Johns Hopkins 
Center on Civilian Biodefense Strategies, a wonderful 
operation, and we thank you very much. Dr. Inglesby is also a 
physician and specializes in infectious disease medicine. We 
are glad to have you.
    Tom Milne is Executive Director of the National Association 
of County and City Health Officials and has 15 years of 
experience as a local public health director in Washington 
State. Welcome.
    We look forward to hearing an update on public health 
preparedness for bioterrorism. Dr. Hamburg, would you please 
begin our discussion for our second panel.

 TESTIMONY OF MARGARET A. HAMBURG, M.D.,\1\ VICE PRESIDENT FOR 
         BIOLOGICAL PROGRAMS, NUCLEAR THREAT INITIATIVE

    Dr. Hamburg. Thank you very much, Mr. Chairman, for the 
invitation today to speak today on the topic of the state of 
public health preparedness for terrorism involving weapons of 
mass destruction. Certainly, your leadership and commitment in 
addressing this challenge come at a crucial time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Hamburg appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Since the events of the fall, considerable new money and 
attention has been directed towards this problem and they are 
vital. The response to the anthrax letter attacks surfaced many 
critical concerns about public health preparedness, 
particularly with respect to the issues of coordination and 
communication that the Committee has indicated a strong 
interest in.
    It underscored the difficulties of understanding and 
coordinating the complex interactions between different 
agencies of government, different levels of government, and the 
private sector, all of which have important roles to play. 
Responding to this bioterrorist attack required new levels of 
partnership between public health, medicine, law enforcement, 
and the intelligence community. However, these communities did 
not have enough previous experience working together and vast 
differences in their professional cultures, missions, and needs 
clashed.
    The events of the fall also highlighted the pivotal role of 
the media and how an open and constructive partnership with the 
media is paramount in communicating important information to 
the public and reducing the potential for confusion, fear, and 
panic.
    Last, the management of the crisis was complicated by the 
fragmented and under-resourced infrastructure for public health 
and an already strained health care system.
    Many things must be done. I have submitted much more 
detailed formal testimony for the record and I am also 
submitting a recent editorial I did in Science magazine on 
public health preparedness for the record.\1\
---------------------------------------------------------------------------
    \1\ The Feb. 22, 2002 article entitled ``Public Health 
Preparedness,'' from Science magazine submitted by Dr. Hamburg appears 
in the Appendix on page 66.
---------------------------------------------------------------------------
    I want to take my time now to mention a few broad concerns 
related to the problems of coordination and communication.
    First, a comprehensive and systematic evaluation of the 
anthrax response should be undertaken. Surprisingly, this has 
not yet been done, to the best of my knowledge. Looking within 
and across the relevant agencies of government, levels of 
government, and at the relationships of private sector 
organizations, an informed analysis with identification of gaps 
in preparedness and response and realistic recommendations for 
improvement will be of enormous value. A number of entities 
could undertake this, but there is some urgency to do so before 
events fade from memory and new priorities overwhelm us, and it 
cannot just be an individual agency by agency listing of 
lessons learned but a true cross-cutting analysis.
    Clearly, we need comprehensive integrated planning. As 
Senator Cleland noted, we still need to more clearly define the 
relative roles and responsibilities of different agencies 
involved and the mechanisms by which they will interact and 
work together and do this before we are in the midst of a 
crisis.
    In addition, we still have not adequately prepared top 
officials to cope with this new type of security crisis. We 
have not invested adequately in the planning exercises needed 
to implement a coordinated response, and we have not adequately 
educated the American people or developed strategies to 
constructively engage the media to communicate critical 
information about what is happening and how to protect 
themselves.
    The new Office of Homeland Security is clearly key to such 
efforts, but there are concerns. It is difficult to imagine how 
Governor Ridge can successfully bring together and coordinate 
all the myriad agencies responsible for the different aspects 
of homeland security without budgetary authority, or at a 
minimum, budget review and sign-off authority, and cabinet-
level status making him at least co-equal to the other members 
of the homeland security team.
    In addition to the Executive Branch, coordination is needed 
with respect to the activities here in Congress. I am told that 
literally dozens of committees and subcommittees are involved, 
and given the complex and multi-disciplinary nature of the 
problem, it is not surprising that a wide array of committees 
would have a role to play and completely appropriately. 
Nonetheless, assuring the comprehensive and well-integrated 
strategies needed will not occur unless there is equivalent 
integration, coordination, and communication among committees 
and leadership on the Hill, and I think this Committee is well 
positioned to help serve that effort.
    As noted by others, key to effective public health 
preparedness is public health itself. It is an important pillar 
in our national security framework and must be a full partner 
at the table. The chair is closer today than it was before, but 
it still is not full square there. Public health expertise must 
be a prominent component of the new Office of Homeland 
Security, and a public health official, in my view, should 
become part of the White House National Security Council.
    And on the ground, there is an urgent need to strengthen 
and extend the core capacities of our public health system. Our 
infrastructure----
    Senator Cleland. Dr. Hamburg, we have a vote called. If you 
do not mind, could you submit that for the record?
    Dr. Hamburg. Certainly.
    Senator Cleland. Dr. Inglesby, could you say some wonderful 
things to us, and Mr. Milne? I would hate to leave here and let 
you all hang. Could we move to Dr. Inglesby?
    Dr. Hamburg. Certainly.

  TESTIMONY OF THOMAS V. INGLESBY, M.D.,\1\ DEPUTY DIRECTOR, 
    JOHNS HOPKINS CENTER FOR CIVILIAN BIODEFENSE STRATEGIES

    Dr. Inglesby. Senator Cleland, thank you and the other 
distinguished Members of the Committee for this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Inglesby appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    First, I would like to say that it is important to 
understand that the anthrax attacks of 2001 produced an 
extremely complicated set of management problems. CDC had to 
act faster than it ever had acted before, had to work with 
public health agencies like it had never done before, 
communicate with clinicians and nurses like never before, on a 
scale and a speed which was unprecedented. So there were 
professionals in all of these agencies, public health agencies, 
working around the clock, extremely dedicated, with the best 
intentions and a number of good successes throughout the 
crisis.
    But with all this being said, in my analysis, there are at 
least three categories of communication breakdowns that are 
worth calling attention to as we figure out what to do as we 
move forward. The three categories were the processes of 
incoming communication, the processes for resolving scientific 
issues during the crisis, and the processes of outgoing 
communication.
    I mean by incoming communication the processes by which 
clinicians and doctors who are seeing illnesses or suspected 
illnesses could communicate their concerns to public health 
agencies and to the CDC. In addition to that, there were data 
streams coming from a variety of directions regarding 
environmental health data and laboratory data which were coming 
forward at a pace and of a scale which had never been done 
before. So simply the task of integrating the data and 
processing it and forwarding it to public health decisionmakers 
was a tremendous challenge for public health agencies.
    The second category of issues regarded what you mentioned 
before on the first panel, and that was the processes for 
resolving the complicated science issues that arose during the 
crisis. Most people look to CDC for their technical expertise 
to resolve scientific questions, and that is absolutely 
appropriate. But during the crisis, we saw science questions 
that could not be solved by people within CDC alone, and CDC 
certainly was aware of that and tried to develop processes to 
answer questions.
    But as an example, we ask the question: ``Who should get 
the anthrax vaccine, if anyone? '' Of those affected by the 
anthrax crisis? To answer that question, you needed to know how 
likely it was that anthrax spores would cause disease after 
weeks of being in the body dormant? How likely was it that you 
could diagnose anthrax safely early after the infection begins? 
How much anthrax vaccine do we have and when will we have more? 
How safe are the existing anthrax vaccine stocks? All of these 
questions mandate that we have a variety of scientific 
competencies at the table, and you have mentioned those 
already.
    Senator Cleland. Dr. Inglesby, can we have you summarize 
and move on to Mr. Milne?
    Dr. Inglesby. Absolutely. So I think, in short, the highest 
level recommendations I would submit for improving 
communication: (1) improved connectivity between public health 
agencies and the medical system. There is a breakdown there 
that is real. Doctors and nurses are not part of the Health 
Alert Network. So even if we resolve problems of the Health 
Alert Network, doctors and nurses are still out of the loop.
    (2) Clinical information needs to get around the system, as 
well. Doctors and nurses have a responsibility for figuring out 
how we are going to get information to each other, and that is 
a separate problem. Once it is in our system, how do we get to 
each other?
    (3) How do we resolve science questions in the middle of a 
crisis? How do we communicate better with the public, even if 
it is bad news? What is the way to do that best?
    (4) And finally, exercises are extremely important, and I 
think a number of initiatives that the Senate has brought up 
for consideration are extremely useful along these lines. 
Senator Carnahan has legislation pending, Senator Lieberman has 
legislation, and so do you, all of which are aimed at 
addressing some of these deficiencies.
    Senator Cleland. Thank you, Doctor. Mr. Milne.

TESTIMONY OF THOMAS L. MILNE,\1\ EXECUTIVE DIRECTOR, GOVERNANCE 
 SUPPORT TEAM, NATIONAL ASSOCIATION OF COUNTY AND CITY HEALTH 
                       OFFICIALS (NACCHO)

    Mr. Milne. Thank you, Senator. I am Tom Milne with the 
National Association of County and City Health Officials. We 
were asked to provide testimony on two issues. I will be very 
brief on both.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Milne appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    The first has to do with the relationship between law 
enforcement and public health. The second is a progress report 
to you in terms of how the appropriation of Federal 
bioterrorism funding is translating to action at the local 
level. Our submitted testimony provides a great deal of detail 
on both issues.
    Just in brief, an effective response at the local level to 
bioterrorism requires close collaboration between law 
enforcement and public health, and I am happy to report to you, 
sir, that is going very well with local law enforcement 
agencies and local public health. In fact, there is a long 
history of the two sectors working together.
    There are many examples in my testimony. I would highlight 
one: In the Fulton County Health Department and in the DeKalb 
County Board of Health in your own State of Georgia, there is 
an exquisite emergency plan that incorporates law enforcement, 
public health, and many other first responders.
    If there is a problem in collaboration between public 
health and law enforcement, it is in the lack of clarity in 
terms of how the various channels of Federal resources can be 
used at the State and local levels.
    Second, in terms of how the funding is translating at the 
local level, it is too early to tell much. What I can say is 
there have been mixed results in terms of how the process is 
going between States and locals. We have concern that enough 
money will not make it to the local level to make the 
difference that is needed. We strongly recommend that Federal 
monitoring of how the resources are ultimately used take place. 
There are some States where State and local collaboration has 
been very effective. So there is some hope.
    So in very brief summary, the public health infrastructure 
is critical to bioterrorism, but it also serves dual purposes 
to building the national public health capacity on a much 
broader scale.
    Senator Cleland. Wonderful.
    Mr. Milne. Thank you very much.
    Senator Cleland. Thank you all very much. I deeply regret 
that I have got only 5 minutes left for this vote. You all have 
been wonderful, very patient. Your testimony means an awful lot 
to me and we will take it into account.
    By the way, the record stays open for a week for any 
statement or questions or testimony that you want to submit. We 
have some questions we would like to submit to you for the 
record.
    With that, we thank you very much for coming and thank the 
staff for putting this hearing together.
    The Committee is adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0296.001

[GRAPHIC] [TIFF OMITTED] T0296.002

[GRAPHIC] [TIFF OMITTED] T0296.003

[GRAPHIC] [TIFF OMITTED] T0296.004

[GRAPHIC] [TIFF OMITTED] T0296.005

[GRAPHIC] [TIFF OMITTED] T0296.006

[GRAPHIC] [TIFF OMITTED] T0296.007

[GRAPHIC] [TIFF OMITTED] T0296.008

[GRAPHIC] [TIFF OMITTED] T0296.009

[GRAPHIC] [TIFF OMITTED] T0296.010

[GRAPHIC] [TIFF OMITTED] T0296.011

[GRAPHIC] [TIFF OMITTED] T0296.012

[GRAPHIC] [TIFF OMITTED] T0296.013

[GRAPHIC] [TIFF OMITTED] T0296.014

[GRAPHIC] [TIFF OMITTED] T0296.015

[GRAPHIC] [TIFF OMITTED] T0296.016

[GRAPHIC] [TIFF OMITTED] T0296.017

[GRAPHIC] [TIFF OMITTED] T0296.018

[GRAPHIC] [TIFF OMITTED] T0296.019

[GRAPHIC] [TIFF OMITTED] T0296.020

[GRAPHIC] [TIFF OMITTED] T0296.021

[GRAPHIC] [TIFF OMITTED] T0296.022

[GRAPHIC] [TIFF OMITTED] T0296.023

[GRAPHIC] [TIFF OMITTED] T0296.024

[GRAPHIC] [TIFF OMITTED] T0296.025

[GRAPHIC] [TIFF OMITTED] T0296.026

[GRAPHIC] [TIFF OMITTED] T0296.027

[GRAPHIC] [TIFF OMITTED] T0296.028

[GRAPHIC] [TIFF OMITTED] T0296.029

[GRAPHIC] [TIFF OMITTED] T0296.030

[GRAPHIC] [TIFF OMITTED] T0296.031

[GRAPHIC] [TIFF OMITTED] T0296.032

[GRAPHIC] [TIFF OMITTED] T0296.033

[GRAPHIC] [TIFF OMITTED] T0296.034

[GRAPHIC] [TIFF OMITTED] T0296.035

[GRAPHIC] [TIFF OMITTED] T0296.036

[GRAPHIC] [TIFF OMITTED] T0296.037

[GRAPHIC] [TIFF OMITTED] T0296.038

[GRAPHIC] [TIFF OMITTED] T0296.039

[GRAPHIC] [TIFF OMITTED] T0296.040

[GRAPHIC] [TIFF OMITTED] T0296.041

[GRAPHIC] [TIFF OMITTED] T0296.042

[GRAPHIC] [TIFF OMITTED] T0296.043

[GRAPHIC] [TIFF OMITTED] T0296.044

[GRAPHIC] [TIFF OMITTED] T0296.045

[GRAPHIC] [TIFF OMITTED] T0296.046

[GRAPHIC] [TIFF OMITTED] T0296.047

[GRAPHIC] [TIFF OMITTED] T0296.048

[GRAPHIC] [TIFF OMITTED] T0296.049

[GRAPHIC] [TIFF OMITTED] T0296.050

[GRAPHIC] [TIFF OMITTED] T0296.051

[GRAPHIC] [TIFF OMITTED] T0296.052

[GRAPHIC] [TIFF OMITTED] T0296.053

[GRAPHIC] [TIFF OMITTED] T0296.054

[GRAPHIC] [TIFF OMITTED] T0296.055

[GRAPHIC] [TIFF OMITTED] T0296.056

[GRAPHIC] [TIFF OMITTED] T0296.057

[GRAPHIC] [TIFF OMITTED] T0296.058

[GRAPHIC] [TIFF OMITTED] T0296.059

[GRAPHIC] [TIFF OMITTED] T0296.060

[GRAPHIC] [TIFF OMITTED] T0296.061

[GRAPHIC] [TIFF OMITTED] T0296.062


</pre></body></html>
